                                     SOCIAL SECURITY
MEMORANDUM

Date:   November 18, 2009                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Impact of State Budget Issues on the Social Security Administration’s Disability
        Programs (A-01-10-11006)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to assess the impact of State budget issues on the Social Security
        Administration’s disability programs.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.



                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
      QUICK RESPONSE
       EVALUATION



Impact of State Budget Issues on the
  Social Security Administration’s
        Disability Programs
            A-01-10-11006




            November 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                            Background
OBJECTIVE
Our objective was to assess the impact of State budget issues on the Social Security
Administration’s (SSA) disability programs.

BACKGROUND
SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI)
payments to eligible individuals under Titles II and XVI of the Social Security Act. 1 To
receive benefits under either program, an individual must file an application with SSA.
Once an application is filed, an SSA field office determines whether the individual meets
the non-disability criteria for benefits. 2 If so, the field office generally forwards the claim
to the disability determination services (DDS) in the State or other office with jurisdiction
for a disability determination. 3 DDSs are in each of the 50 States plus the District of
Columbia and Puerto Rico.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The expenditures include both costs directly related to claims
processing (such as disability adjudicators’ salaries) and indirect costs. (See
Appendix B for additional information about DDS funding.)

Federal regulations state, “Subject to appropriate Federal funding, the State will, to the
best of its ability, facilitate the processing of disability claims by avoiding personnel
freezes, restrictions against overtime work, or curtailment of facilities or activities.” 4

However, to address budget deficits, some States have instituted, or are considering,
furloughs for State employees—including staff at the DDSs, which are fully funded by
SSA. Additionally, some States have implemented other measures, such as changes in
hiring procedures, that may affect disability claims processing in the DDSs.


1
    The Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
2
 For DI benefits, the non-disability criteria include such factors as sufficient earnings.
20 C.F.R. §§ 404.130 through 404.133 and 20 C.F.R. § 404.315. For SSI payments, the non-disability
criteria include such factors as citizenship, low income and resources. 20 C.F.R. § 416.202 and
20 C.F.R. §§ 416.1100 through 416.1266.
3
  At the DDS, a disability examiner, using SSA’s regulations, policies, and procedures, obtains the
relevant medical evidence and then, working with a physician and/or a psychologist, evaluates the case
and determines whether the claimant is disabled under the Agency’s criteria. The Social Security Act
§§ 221 (a)(1) and 1633 (a), 42 U.S.C. §§ 421 (a)(1) and 1383b(a). (See also) 20 C.F.R. §§ 404.1601 et
seq. and 416.1001 et seq.
4
    20 C.F.R. §§ 404.1621(d) and 416.1021(d).


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                               1
Some States have taken other measures to balance budgets that may impact
individuals already receiving DI and/or SSI. For example, some States reduced the
amount of the SSI State Supplemental Payments to recipients and restricted the
availability of free or low-cost health care.

To perform this review, we gathered and reviewed data related to workloads in Fiscal
Years (FY) 2009 and 2010; contacted SSA officials and staff to obtain information on
the Agency’s disability programs and the effects of State budget cuts; calculated the
monetary impact of States that were furloughing all DDS employees and savings in
States that were not furloughing DDS employees as a result of SSA’s efforts; and
researched the impact of State budgetary issues on DI beneficiaries and SSI recipients.
(See Appendix C for additional information about our scope and methodology.)

The results presented in this report are a snapshot of what was happening with State
budgets between August and November 2009 and the impact on SSA’s disability
programs and current beneficiaries. If the current nationwide economic crisis continues,
more States may impose furloughs and/or hiring freezes and continue to make cuts in
services until their State economies improve.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)             2
                                                             Results of Review
State budget issues have affected SSA’s disability programs. At the same time that
SSA has experienced a surge in new disability claims, State furloughs have affected the
Agency’s ability to process claims—even though it has taken measures to address
these issues. Additionally, State budget cuts have affected disability beneficiaries and
recipients.

In the States furloughing all DDS employees, the DDSs will encounter a shortfall of
capacity up to 14 percent because of furlough days. As a result of furloughs, we expect
approximately 69,000 disability cases to be delayed in processing over the next
12 months. This wait will result in about $126.2 million in benefit payments being
delayed to newly disabled claimants and from flowing into the economies of these
States.

INCREASED INITIAL DISABILITY CLAIMS APPLICATIONS

In late FY 2008, SSA began experiencing a significant increase in initial disability claim
applications due to the deteriorating economy. The rate of increased applications
continued to grow through FY 2009—totaling about 15 percent above the previous year.
Although the Agency has been able to process almost 8 percent more initial claims than
last year, this growth in new claims has outpaced the DDS’ ability to keep up with the
new workload. By the end of FY 2009, the number of initial cases pending in the DDSs
had grown to almost 770,000—about 38 percent higher than at the end of FY 2008.

                     DDS Initial Claims Pending FYs 2007-2009
   780,000



   730,000



   680,000



   630,000



   580,000



   530,000
                                         ry
                               y




                                                            ay




                                                                          ly
                                                ch
              er




                                                      ril




                                                                   ne




                                                                                                r
                r


                r




                                                                                  st



                                                                                             be
             be


             be



                            ar




                                                                        Ju
                                                     Ap




                                                                                gu
                                       ua
            ob




                                                            M
                                              ar




                                                                 Ju
                          nu




                                                                                           em
         em


         em




                                                                               Au
                                     br


                                              M
         ct




                        Ja
       O




                                   Fe




                                                                                         pt
      ov


      ec




                                                                                       Se
     N


     D




                      2007                                2008                      2009




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                          3
The American Recovery and Reinvestment Act of 2009 (ARRA) provided SSA with
$500 million to help address the increasing disability and retirement workloads caused
by the combination of the economic downturn and the leading edge of the baby boomer
retirement wave. 5

ARRA funding enabled the Agency to put new front-line hires in place to address the
growing critical workloads. By the end of FY 2009, the States—working with SSA—
used ARRA funding to hire 300 new employees in the DDSs. 6

In addition to using ARRA funding for new hires, SSA included in its FY 2010 budget
proposal strategies for dealing with the increasing initial disability claims workloads,
such as:

    •   Increasing capacity in the State DDSs and Federal Disability Processing Units.
        The Agency hired additional staff in most DDSs and Federal units. Additionally,
        SSA established Extended Service Teams in the Arkansas, Mississippi,
        Oklahoma, and Virginia DDSs. These specialized units, although housed in
        these four States, have been dedicated to assisting other States in processing
        disability claims.
    •   Expanding the use of automated screening tools to identify and help triage likely
        allowances.

The Agency has also developed a number of initiatives to expedite its disability claims
process, including the following.

    •   Plan to Eliminate the Hearing Backlog and Prevent Its Recurrence
    •   Quick Disability Determinations
    •   Compassionate Allowances
    •   Terminal Illness Cases
    •   Military Service Casualty Cases
    •   Presumptive Disability and Blindness Cases
    •   Health Information Technology

See Appendix D for more information on these initiatives.




5
 Pub. L. No. 111-5, Title VIII. (See also) The Social Security Administration (SSA) Agency-wide
Recovery Act Plan, found at http://ssa.gov/recovery/Report_Plan/AgencyWideRecoveryActPlan.pdf.
6
 We recently conducted a review related to DDS hiring using ARRA funds: The Recovery Act and the
Hiring of Disability Determination Staff (A-07-09-29156).


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                         4
FURLOUGHS

In FY 2009, SSA spent about $2 billion funding DDS operations for more than
14,000 DDS employees who processed almost 3.9 million disability claims nationwide.
(See Table E-4 in Appendix E for a breakout by DDS.) Further, the Agency plans to
spend more than $2 billion in FY 2010 on DDS operations and expects the DDSs to
process almost 4 million claims. However, State furloughs have had an effect on SSA’s
ability to process disability claims.

As shown in Table 1, nine States implemented or were considering furloughs for all
DDS employees, and three States implemented furloughs for some DDS employees. 7
(See Appendix F for details on the furlough status for all 52 DDSs.)

    Table 1: DDS Furloughs Implemented or Being Considered as of November 2009
                        Number of
            DDS       Furlough Days                                 Notes 8
                          per FY
    California                 36        Applies to all employees through June 2010.
    Connecticut                 3        Applies to all employees for FY 2010.
    Hawaii              18 to 24         Applies to all employees in FYs 2010 and 2011.
    Maine                      10        Applies to FYs 2010 and 2011. Some staff exempted.
    Massachusetts          3 to 9        Applies to managers for FY 2010, with number of days
                                         depending on salary. Other staff exempt from furlough.
    Nevada                     12        Applies to FYs 2010 and 2011. Adjudicative staff—
                                         examiners, medical consultants, unit supervisors, and
                                         call center staff—exempt from the furlough.
    New Jersey                 10        Applies to all employees through June 2010.
    Ohio                       10        Applies to all employees for FYs 2010 and 2011.
    Oregon                 6 to 7        Applies to all employees in FYs 2010 and 2011.
                                         Includes DDS shutdown days and furlough days based
                                         on salary.
    Rhode Island               12        Applies to all employees through June 2010.
    Virginia                    1        Applies to all employees on May 28, 2010.
    Wisconsin                   8        Applies to all employees for FYs 2010 and 2011.




7
  As we stated in our March 2009 report, Impact of State Employee Furloughs on the Social Security
Administration’s Disability Programs (A-01-09-29137), Maryland furloughed DDS employees January
through June 2009. Although Maryland DDS employees were not subject to furloughs as of
November 2009, they were subject to pay reductions.
8
 Although the Federal FY runs October 1 through September 30, most State FYs run July 1 through
June 30. For the purposes of our report and our calculations of delayed benefits, we assumed the current
State furloughs would continue throughout Federal FY 2010.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                            5
Dollar Impact on the Economy

In FY 2008:
    •   SSA issued over $142 billion in DI and SSI payments to more than 14 million
        individuals. Most of these beneficiaries were found disabled by the DDSs.
    •   DDSs handled over 3.6 million claims. The DDSs allowed 36 percent of claims
        at the initial level and 13.8 percent of claims at the reconsideration level of
        appeal.
    •   DDSs processed initial DI and SSI claims in 81 days, on average.

In FY 2009:
    •   DDSs received almost 15 percent more initial claims than in FY 2008.
    •   DDSs processed almost 3.9 million claims—including almost 2.8 million initial
        disability claims. The DDSs allowed 36.9 percent of claims at the initial level and
        13.8 percent of claims at the reconsideration level of appeal.
    •   DDSs processed initial DI claims in 80 days, on average, and SSI claims in
        83 days, on average.

(See Tables E-3 and E-4 in Appendix E for statistics and costs by DDS for
FYs 2008 and 2009.)

Furloughs will impact the number of disability determinations some DDSs will make in
FY 2010, including the number of claims allowed. In the nine States furloughing or
considering furloughing all DDS employees in FY 2010, the DDSs will encounter a
shortfall of capacity up to 14 percent due to furlough days. As a result, we expect
approximately 69,000 disability cases to be delayed in processing over the next
12 months. This wait will result in about $126.2 million in benefits that will not be paid to
disabled beneficiaries during this period that would have been paid had the furloughs
not occurred. Additionally, these States will lose over $39 million in administrative
funding from SSA because these employees will be furloughed.

Furloughs will also impact the Agency’s initiatives to expedite its disability claims
process and the number of continuing disability reviews conducted. 9




9
 SSA conducts periodic continuing disability reviews to ensure that only those beneficiaries who remain
disabled continue to receive benefits.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                6
OTHER STATE BUDGET ISSUES AFFECTING DISABILITY CLAIMS PROCESSING

In addition to furloughs, other issues, such as attrition rates and State budgets, will
impact the DDS’ ability to process workloads. As of October 2009, most DDSs were not
subject to hiring freezes, because either the States did not have hiring freezes or the
DDSs were exempt. 10

Attrition Rate

The national attrition rate for DDS disability examiners was 12.5 percent in FY 2008 and
12.2 percent in FY 2009. 11 (See Table E-6 in Appendix E for attrition rates by DDS.)
The attrition rate has remained steady at the national level and has declined in over
30 DDSs. However, some DDSs have experienced a significant rise in the attrition
rate—partly due to State budget and pay issues. In Connecticut, for example, the
examiner attrition rate rose from 4.9 percent in FY 2008 to 23.6 percent in FY 2009.
Similarly, the examiner attrition rate in Kansas rose from 12 to 26.2 percent, and the
rate in New Mexico rose from 3.5 to 22.3 percent. These issues may become more of
an obstacle to SSA’s processing disability workloads if furloughs and other State budget
issues continue.

Other State Budget Issues

In several States, salaries were frozen or pay reductions were imposed. Furthermore,
in some States, DDS hiring approval was more difficult to obtain or hiring was on hold
because of potential layoffs in other agencies. 12

For example, in Delaware, the State reduced employees’ pay by 2.5 percent in
FY 2010, while increasing employees’ health insurance premium payments by
2 percent. (See Appendix G for additional details regarding State budget issues.)

SSA’s Efforts to Lessen the Impact of Furloughs

The Social Security Act and Federal regulations give the Agency limited control over
how the States set up and administer their DDSs, even though they are fully federally
funded. SSA is involved in the States’ ongoing program management only as
necessary and in accordance with regulations. 13

10
 In States with hiring freezes, some DDSs were given blanket exemptions to the freeze, while other
DDSs have been allowed to hire on a case-by-case basis.
11
     The attrition rate for all DDS staff was 10.5 percent in FY 2008 and 9.2 percent in FY 2009.
12
  Some DDSs will have to give qualified laid off clerical employees in other agencies priority
consideration for positions in the DDS.
13
 The Social Security Act § 221, 42 U.S.C. § 421. (See also) 20 C.F.R. §§ 404.1603 and 416.1003.
SSA published these regulations in May 1981 and revised them in September 2007 to incorporate the
Quick Disability Determination process.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                           7
However, SSA has been proactive in addressing the impact of furloughs. Since
December 2008, the Commissioner has contacted all the State governors and some
State legislators about the SSA/DDS, Federal/State relationship and the impact of
furloughs. Additionally, in July 2009, the Vice President wrote the Chair of the National
Governors Association urging States to exempt DDS employees from furloughs and
hiring freezes.

Furthermore, in October 2009, SSA filed a Statement of Interest with a California
Superior Court that furloughs of DDS employees were inconsistent with the State’s
obligations and responsibilities under the Social Security Act. Specifically, regulations
obligate California to provide adequate facilities and qualified personnel to carry out the
disability determination function and, “. . . to the best of its ability, facilitate the
processing of disability claims by avoiding personnel freezes, restrictions against
overtime work, or curtailment of facilities or activities.” 14

Because of the Agency’s efforts, Colorado and Maryland have fully exempted the DDSs
from furloughs and Illinois, Maine, Massachusetts, and Nevada have partially exempted
the DDSs from furloughs. Because of the Agency’s efforts, we estimate approximately
13,000 disability cases will be processed that would have been delayed. These
individuals will receive about $24.4 million in benefits that would otherwise be delayed. 15
Additionally, these States will receive almost $6.7 million in administrative funding that
SSA would not have paid if these DDS employees were furloughed (see Table C-3 in
Appendix C).

Additionally, several States either fully exempted or exempted on a case-by-case basis,
the DDSs from hiring restrictions, including Arizona, California, Colorado, Connecticut,
Delaware, Idaho, Iowa, Maine, Nevada, New Hampshire, New Jersey, New York, Ohio,
Oregon, Pennsylvania, Puerto Rico, South Dakota, Tennessee, Virginia, Washington,
West Virginia, and Wyoming.

Finally, SSA has worked with the States to coordinate transfer of some cases between
States and to the Federal Disability Processing Branches and Units. These Units
recently hired 192 new staff (mostly adjudicators), and the Agency planned to rely on
them to help process cases.

Even though SSA has had some success in lessening the impact of State furloughs,
these actions—along with a significant increase in new disability claims—have affected
the Agency’s ability to keep up with the initial claims workloads.




14
  The Statement of Interest filed was with the lawsuit Union of American Physicians and Dentists v.
Arnold Schwarzenegger, Governor of California.
15
     The calculation of savings from furlough exemptions includes States with partial furloughs.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                            8
STATE BUDGET ISSUES AFFECTING CURRENT DISABILITY BENEFICIARIES
AND RECIPIENTS

Because of budget shortfalls, some States have made budget cuts that have affected
disability beneficiaries and SSI recipients. For example, some States reduced SSI
State Supplemental Payments (SSP) and restricted eligibility for other programs,
including health care coverage. (See Appendix H for a list of State Websites providing
additional budget information.)

Reduced SSPs

The SSI program was designed as a nationwide, Federal cash assistance program
administered by SSA to provide a minimum level of income to financially needy
individuals who are aged, blind, or disabled. 16 Recognizing that there were variations in
living costs across the nation, many States built on the Federal program by
supplementing the SSI payment. However, because of budget issues, some States
have reduced, or are considering reducing, their SSP.

For example, in 2009, California reduced its SSP between 11 and 25 percent,
depending on the recipient’s living arrangements. 17 The State plans to reduce its SSP
rates again in November 2009. As a result of decreases in the SSPs, an estimated
20,000 individuals lost their eligibility for Medicaid (known as Medi-Cal in California) in
May 2009. An additional 12,000 lost their Medi-Cal eligibility in July 2009. 18

Other State Budget Cuts Affecting the Disabled or Elderly

According to the Center on Budget and Policy Priorities, 19 at least 27 States have
implemented cuts in public health programs—such as Medicaid or the Children’s Health
Insurance Program—that will restrict low-income children’s or families’ eligibility for
health insurance or reduce their access to health care services. Additionally, at least
24 States and the District of Columbia are cutting medical, rehabilitative, home care, or
other services needed by low-income individuals who are elderly or have disabilities, or
they are significantly increasing the costs of these services. 20 The National Conference

16
     The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
17
  Rhode Island also decreased its SSP effective January 2009 by the amount of the Federal cost of living
increase so there was no net gain for recipients.
18
   As a result of a California State court ruling, Medi-Cal beneficiaries losing SSP based on Medi-Cal
eligibility cannot have their Medi-Cal benefits automatically discontinued. These cases must be reviewed
and evaluated for eligibility in other Medi-Cal programs. The only exceptions to the court ruling were
those individuals who lose Medi-Cal eligibility due to death or incarceration.
19
   The Center on Budget and Policy Priorities is a non-partisan, nonprofit research organization that works
at the federal and state levels on budget priorities, tax policy, and public programs and policies that affect
low-income and moderate-income families and individuals.
20
     Center on Budget and Policy Priorities, an Update on State Budget Cuts, September 3, 2009.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                  9
of State Legislatures also compiled a list of measures, both proposed and enacted, that
States took or were considering about health care to close their budget gaps 21 (see
Appendix I).

Although SSA does not administer health care benefits, its field offices often receive
questions about these issues from current beneficiaries. For example, Tennessee field
offices received numerous calls and congressional inquires when the State changed its
Medicaid program. Additionally, California field offices and teleservice centers have
been adversely affected by numerous calls regarding SSP reductions and changes in
Medi-Cal.

SSA’s Regional Commissioners and their staffs assisted us in gathering information
about State budget cuts and the effect on disabled beneficiaries and recipients in their
States (see Appendix J).




21
 National Conference of State Legislatures, FY 2010 Actions and Proposals to Balance the Budget:
Health Care, found at http://www.ncsl.org/?tabid=17245.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                         10
                                   Matters for Consideration
State budget issues have affected SSA’s disability programs. At the same time that
SSA has experienced a surge in new disability claims, State furloughs have affected the
Agency’s ability to process disability claims—even though it took measures to address
these issues. As a result of furloughs, we expect approximately 69,000 disability cases
to be delayed in processing over the next 12 months. This wait will result in about
$126.2 million in benefits that will not be paid to disabled beneficiaries during this period
that would have been paid if the furloughs did not occur. Additionally, State budget cuts
have affected disability beneficiaries and recipients.

The Social Security Act and Federal regulations give the Agency limited control over
how the States set up and administer the DDSs, even though they are fully federally
funded. However, SSA has been proactive in addressing the effect of furloughs, and
some States have responded to the Agency’s efforts to exempt the DDSs from
furloughs and hiring freezes.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                 11
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Disability Determination Services Funding

APPENDIX C – Scope and Methodology

APPENDIX D – The Social Security Administration’s Initiatives to Expedite the
             Disability Claims Process

APPENDIX E – Disability Statistics by Jurisdiction

APPENDIX F – Furlough and Hiring Freeze Status by Disability Determination
             Services
APPENDIX G – Other State Budget Issues Affecting Disability Determination Services
             and Disability Claims Processing

APPENDIX H – Budget Website Information by State

APPENDIX I – Cuts to Programs for Public Health and the Elderly and Disabled

APPENDIX J – Other State Budget Issues Affecting Disability Beneficiaries and
             Recipients
APPENDIX K – OIG Contacts and Staff Acknowledgments




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)
                                                                             Appendix A

Acronyms
 ARRA               American Recovery and Reinvestment Act of 2009

 C.F.R.             Code of Federal Regulations

 CHIP               Children’s Health Insurance Program

 DDS                Disability Determination Services

 DI                 Disability Insurance

 FY                 Fiscal Year

 MEGAHIT            Medical Evidence Gathering and Analysis through Health
                    Information Technology
 OMB                Office of Management and Budget

 POMS               Program Operations Manual System

 Pub. L. No.        Public Law Number

 SSA                Social Security Administration

 SSI                Supplemental Security Income

 SSP                State Supplement Payment

 U. S. C.           United States Code




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)
                                                                                      Appendix B

Disability Determination Services Funding
The Social Security Administration (SSA) implements policies for the development of
disability claims under the Disability Insurance (DI) and Supplemental Security Income
(SSI) programs. The DI program provides benefits to wage earners and their families in
the event of disability. The SSI program provides benefits to financially needy
individuals who are aged, blind, or disabled. Additionally, States have the option of
supplementing their residents' SSI payments and may choose to have the additional
payments administered by SSA.

Disability determinations under both the DI and SSI programs are performed by
disability determination services (DDS) in each State or other responsible jurisdiction in
accordance with the Social Security Act and Federal regulations. 1 In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase medical
examinations, X rays and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. 2 The DDS withdraws Federal funds through the Department of
the Treasury’s Automated Standard Application for Payment system to pay for program
expenditures. Funds drawn down must comply with Federal regulations 3 and
intergovernmental agreements entered into by the Department of the Treasury and
States under the Cash Management Improvement Act of 1990. 4 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget (OMB) Circular A-87. At the end of each quarter of the Fiscal Year, each
DDS submits a Form SSA-4513, State Agency Report of Obligations for SSA Disability
Programs, to account for program disbursements and unliquidated obligations.




1
 The Social Security Act §§ 221(a) and 1633(a), 42 U.S.C. §§ 421(a) and 1383b(a).
20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
 Expenditures include direct and indirect costs. Direct costs can be identified specifically with a particular
cost objective. Indirect costs arise from activities that benefit multiple programs but are not readily
assignable to these programs without effort disproportionate to the results achieved. (OMB Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments, Attachment A, §§ E.1 and F.1)
3
    31 C.F.R. § 205.1 et seq.
4
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)
                                                                                   Appendix C

Scope and Methodology
To accomplish our objective, we:

       Reviewed applicable sections of the Social Security Act and the Social Security
        Administration’s (SSA) regulations, policies, and procedures.

       Researched prior reports issued by the Office of the Inspector General.

       Researched published reports and articles on how State budget cuts have
        affected programs that provide health care and other benefits to the disabled and
        elderly.

       Reviewed National Disability Determination Services (DDS) Performance
        Summary reports for Fiscal Years (FY) 2007 through 2009.

       Gathered and reviewed data related to the anticipated DDS workloads in
        FY 2010.

       Contacted SSA officials and staff to obtain information on SSA’s disability
        programs, the effect of State furloughs on claims processing, and the effect of
        State budget cuts on current disabled beneficiaries and recipients.

       Calculated the dollar impact of States that were furloughing all DDS employees
        and savings in States that were not furloughing DDS employees as a result of
        SSA’s efforts.

We performed our review between August and November 2009 in Boston,
Massachusetts. We conducted our review in accordance with the President’s Council
on Integrity and Efficiency’s Quality Standards for Inspections. 1

Methodology of Furlough Impact

SSA prepared estimates of the cost of a furlough per day in each DDS. Table C-1
shows SSA’s estimates.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008,
Pub. L. No. 110-409 § 7, 5 U.S.C. App. 3 § 11.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                            C-1
           Table C-1: Estimated Effects of a Furlough Day for FY 2009 by DDS 2
                                                              Value of 1-Day Furlough
                         Budgeted
           DDS           Number of                                                         Monthly
                                             Number of           Administrative
                       Cases per Year                                                      Benefits
                                              Cases                Funding
                                                                                           Delayed
Alabama                            82,534              330                $189,100               $77,100
Alaska                              5,030                20                $17,300                $7,700
Arizona                            70,687              283                $121,500               $73,500
Arkansas                           65,695              263                 $99,900               $72,900
California                        368,982             1,476               $849,400             $420,800
Colorado                           32,589              130                 $76,700               $40,800
Connecticut                        31,850              127                 $76,500               $31,200
Delaware                            9,458                38                $26,100               $12,100
District of Columbia               10,032                40                $33,300               $12,000
Florida                           261,894             1,048               $435,900             $266,200
Georgia                           130,357              521                $231,200             $106,100
Hawaii                             10,324                41                $26,500               $15,400
Idaho                              21,509                86                $32,400               $24,600
Illinois                          143,435              574                $289,700             $154,900
Indiana                            90,814              363                $165,900               $96,700
Iowa                               32,371              129                 $87,000               $33,400
Kansas                             33,572              134                 $63,800               $38,000
Kentucky                           96,403              386                $167,800               $94,800
Louisiana                          70,709              283                $151,900               $76,600
Maine                              17,100                68                $33,200               $18,000
Maryland                           60,501              242                $118,500               $69,400
Massachusetts                      73,994              296                $167,900             $102,100
Michigan                          123,153              493                $309,400             $140,400
Minnesota                          51,084              204                 $95,400               $60,300
Mississippi                        75,844              303                $106,600               $59,400
Missouri                           78,579              314                $138,300               $79,600
Montana                            10,583                42                $22,200               $13,600
Nebraska                           18,441                74                $37,400               $20,500


2
  The values of a 1-day furlough were provided by SSA’s Office of Disability Determinations. The number
of cases was based on the annual number of cases expected to be completed divided by the number of
workdays per year. The amount of administrative funding includes all costs—such as payroll, indirect
costs, and medical costs—for the DDS to operate 1 day. The amount of monthly benefits delayed is
based on the allowance rates for initial claims in each DDS and the average monthly national benefit
($891.05 for Disability Insurance beneficiaries and $533.47 for Supplemental Security Income recipients).


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                            C-2
           Table C-1: Estimated Effects of a Furlough Day for FY 2009 by DDS 2
                                                        Value of 1-Day Furlough
                        Budgeted
           DDS          Number of                                                 Monthly
                                         Number of         Administrative
                      Cases per Year                                              Benefits
                                          Cases              Funding
                                                                                  Delayed
Nevada                         25,584             102               $53,100            $32,000
New Hampshire                  10,720              43               $23,400            $16,500
New Jersey                     84,109             336              $212,000           $121,400
New Mexico                     27,128             109               $51,500            $30,400
New York                      202,046             808              $600,100           $278,100
North Carolina                131,861             527              $215,500           $117,300
North Dakota                     5,632             23               $10,100             $7,100
Ohio                          182,815             731              $345,100           $149,900
Oklahoma                       57,784             231              $106,800            $67,500
Oregon                         44,720             179              $101,100            $52,900
Pennsylvania                  148,024             592              $380,100           $160,300
Puerto Rico                    31,988             128               $67,200            $55,500
Rhode Island                   13,888              56               $31,800            $15,000
South Carolina                 71,518             286              $137,000            $69,900
South Dakota                     7,868             31               $12,700             $8,900
Tennessee                     110,085             440              $214,100            $88,600
Texas                         298,075           1,192              $533,400           $384,100
Utah                           18,149              73               $44,100            $24,900
Vermont                          6,752             27               $16,900             $9,700
Virginia                       75,015             300              $154,000            $88,500
Washington                     70,192             281              $142,000            $84,100
West Virginia                  42,944             172               $82,700            $34,200
Wisconsin                      62,322             249              $124,000            $83,900
Wyoming                          4,213             17               $10,700             $6,600
TOTAL                        3,810,956         15,241            $7,840,200         $4,205,400




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                   C-3
   In States furloughing or considering furloughing all DDS employees in FY 2010, the
   DDSs will encounter a shortfall of capacity up to 14 percent due to furlough days. As a
   result, we expect approximately 69,000 disability cases to be delayed in processing
   over the next 12 months. This wait will result in about $126.2 million in benefits that will
   not be paid to disabled beneficiaries during this period that would have been paid if the
   furloughs did not occur. 3 Table C-2 shows the States and the calculation of costs of the
   planned furloughs based on SSA’s estimates in Table C-1. 4

                         Table C-2: Costs of Planned Furlough by DDS
                    Value of 1-Day Furlough                          Costs of Planned Furloughs per Year
                                                       Furlough
   DDS        Number                       Monthly     Days per     Number
                         Administrative                                       Administrative       Delayed
                of                         Benefits      Year         of
                           Funding                                              Funding            Benefits
               Cases                       Delayed                   Cases
California      1,476          $849,400     $420,800           36    53,136      $30,578,400      $98,467,200
Connecticut       127           $76,500      $31,200            3       381          $229,500        $608,400
Hawaii              41          $26,500      $15,400           18       738          $477,000      $1,801,800
New Jersey        336          $212,000     $121,400           10     3,360        $2,120,000      $7,891,000
Ohio              731          $345,100     $149,900           10     7,310        $3,451,000      $9,743,500
Oregon            179          $101,100      $52,900            6     1,074          $606,600      $2,063,100
Rhode
Island              56          $31,800      $15,000           12       672          $381,600      $1,170,000
Virginia          300          $154,000      $88,500            1       300          $154,000         $88,500
Wisconsin         249          $124,000      $83,900            8     1,992          $992,000      $4,362,800
TOTAL                                                                68,963      $38,990,100    $126,196,300




   3
     To develop the Delayed Benefits estimate, we began by estimating the total amount of benefits delayed
   for each State in the first month. During the succeeding month, the cases for these individuals would be
   worked, but a similar amount of cases would be delayed due to additional furlough days. In addition, a
   growing number of individuals would receive delayed benefits due to the backlog being created. Our
   calculation took into account this continuously rolling, and growing, backlog of cases that would be
   created due to the furloughs.
   4
     Although the Federal FY runs October 1 through September 30, most State FYs run July 1 through
   June 30. For the purposes of our report and our calculations of delayed benefits, we assumed the current
   State furloughs would continue throughout Federal FY 2010.


   Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                           C-4
       Because SSA worked with these States to exempt DDS employees from furloughs, we
       estimate approximately 13,000 disability cases will be processed that would have been
       delayed. These individuals will receive about $24.4 million in benefits that would
       otherwise be delayed. 5 Additionally, these States will receive almost $6.7 million in
       administrative funding that SSA would not have paid if these DDS employees were
       furloughed. Table C-3 shows by DDS the savings in States that exempted DDS
       employees from furloughs. The number of cases and benefits processed per day were
       based on SSA’s estimates in Table C-1.

                        Table C-3: Savings from Furlough Exemptions by DDS
                                                                          Savings from Furlough Exemptions
                           Value of 1-Day Furlough
                                                                Furlough               per Year
                                                                  Days
      DDS          Number                          Monthly      Avoided Number Administrative Benefits Not
                               Administrative
                     of                            Benefits     Per Year  of
                                 Funding                                             Funding       Delayed
                    Cases                         Processed              Cases
Colorado                130            $76,700       $40,800             4        520          $306,800       $1,060,800
Illinois                574          $289,700       $154,900            12      6,888        $3,476,400     $12,082,200
Maine                     68           $33,200       $18,000            10        680          $332,000       $1,170,000
Maryland                242          $118,500        $69,400             8      1,936          $948,000       $3,608,800
Massachusetts           296          $167,900       $102,100             6      1,776        $1,007,400       $3,981,900
Nevada                  102            $53,100       $32,000            12      1,224          $637,200       $2,496,000
TOTAL                                                                          13,024        $6,707,800     $24,399,700




       5
        The calculation of savings from furlough exemptions by DDS includes States with partial furloughs. To
       develop the Benefits Not Delayed estimate, we began by estimating the total amount of benefits not
       delayed for each State in the first month. Similar to our calculation of Delayed Benefits in Table C-2, our
       calculation of Benefits Not Delayed took into account the continuously rolling, and growing, backlog of
       cases that would have been delayed if these DDSs were not exempted from furloughs.




       Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                              C-5
                                                                                 Appendix D

The Social Security Administration’s Initiatives
to Expedite the Disability Claims Process
The Social Security Administration (SSA) has a number of initiatives to expedite the
disability claims process, including a plan to eliminate the hearings backlog and prevent
its recurrence, Quick Disability Determinations, compassionate allowances, military
service casualty cases, presumptive disability and blindness cases, terminal illness
cases, and health information technology.

Plan to Eliminate the Hearings Backlog and Prevent Its Recurrence

In May 2007, the Commissioner testified before Congress that SSA had developed a
plan to eliminate the backlog of hearing requests by 2013 and prevent its recurrence.
The plan focuses on (1) compassionate allowances, (2) improving performance,
(3) increasing adjudicatory capacity, and (4) increasing efficiency with automation and
business processes. 1 To improve performance, SSA is reducing its aged cases and
providing certain attorney advisors the authority to make fully favorable decisions on
cases—thus reserving administrative law judges to conduct hearings on more complex
cases.

Quick Disability Determinations

In February 2008, SSA implemented the Quick Disability Determination process, which
uses a predictive model to electronically identify claims involving a high potential that
the applicant is disabled, medical evidence can be quickly and easily obtained, and the
claim can be processed within 20 Calendar Days of receipt in the disability
determination services (DDS). 2




1
  SSA, Plan to Eliminate the Hearing Backlog and Prevent Its Recurrence, End of Year Report FY 2007,
p.1. In September 2009, we issued a report, Aged Claims at the Hearing Level (A-12-08-18071), that
assessed the age of the pending claims in the hearings backlog, identified obstacles that prevented
claims from being processed timely, and identified best practices that can assist in reducing the aged
claim backlog.
2
 20 Code of Federal Regulations (C.F.R.) §§ 404.1619 and 416.1019. See also, SSA, Program
Operations Manual System (POMS), DI 23022.010. In our May 2009 report, National Rollout of Quick
Disability Determinations (A-01-09-19030), we found the initiative was working as SSA intended to
expedite selected disability claims.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                          D-1
Compassionate Allowances

In October 2008, SSA implemented the Compassionate Allowance process, which
quickly identifies claims electronically involving diseases and other medical conditions
that invariably qualify under SSA’s Listings 3 based on minimal, but sufficient, objective
medical information. Like the Quick Disability Determination process, this initiative uses
a predictive model, but it is simpler—selecting claims for processing based solely on the
applicant’s allegation of having a disease or other medical condition listed in the
Agency’s list of Compassionate Allowance conditions. 4

Terminal Illness Cases

SSA implemented procedures to ensure disability claims with an indication of terminal
illness—either alleged by the claimant or a third party or indicated in medical records—
are handled expeditiously because of their sensitivity. These cases may be identified
by the teleservice center, field office, or DDS. 5

Military Service Casualty Cases

The Military Service Casualty initiative is an SSA commitment to provide expedited
disability claim services to wounded service members and their families. SSA
established procedures to expedite disability claims for any military service personnel
injured October 1, 2001 or later, provided the injury occurred while on active duty. SSA
and DDS staffs are instructed to process these cases under the terminal illness
procedures. 6

Presumptive Disability and Blindness Cases

In the 1970s, SSA implemented the presumptive disability and presumptive blindness
provisions. Under these provisions, an individual applying for Supplemental Security
Income disability payments may receive up to 6 months of payments before the final
determination if he or she is likely disabled and meets all other eligibility criteria. 7




3
 SSA’s Listing of Impairments describes impairments that are considered severe enough to prevent an
adult from performing any gainful activity for work.
4
    SSA, POMS, DI 23022.015.
5
    SSA, POMS, DI 11005.601.
6
 SSA, POMS, DI 23020.050. We are conducting a review, Military Service Casualty Cases
(A-01-09-29056), to assess SSA’s efforts to streamline the disability claims process for these cases.
7
    SSA, POMS, DI 23535.001.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                              D-2
Health Information Technology

In August 2008, SSA began piloting the Medical Evidence Gathering and Analysis
through Health Information Technology (MEGAHIT) prototype with Beth Israel
Deaconess Medical Center in Boston, Massachusetts. This computer process
automatically requests and receives electronic health records in a standardized form to
support SSA’s disability claim decision-making process. MEGAHIT then analyzes the
data and alerts the disability examiner if the claim might be an allowance according to
SSA’s Listing of Impairments. According to SSA, this process occurs within a matter of
minutes, resulting in shorter-than-average claim processing times.

In February 2009, SSA began working with MedVirginia in a trial implementation of a
system-to-system health information exchange through the Nationwide Health
Information Network. This is a secure Network connecting consumers, medical
providers, and others involved in supporting health care. SSA requests and receives
electronic health records through the Nationwide Health Information Network.
MEGAHIT then processes the electronic health record data. According to SSA, as of
May 2009, disability cases processed using medical information through these systems
has resulted in a higher rate of case allowance in less time compared to all disability
cases. The Agency is continuing to evaluate this process.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)           D-3
                                                                             Appendix E

Disability Statistics by Jurisdiction
Table E-1 shows the number of all Disability Insurance (DI) beneficiaries and their
dependents as of December 2007 and the estimated total annual benefits paid to those
individuals. 1

                     Table E-1: December 2007 DI Statistics by Jurisdiction
                                                                     Annual
                                          Disabled
                        Jurisdiction                  Dependents Benefits Paid
                                        Beneficiaries
                                                                  (in millions)
             Alabama                            211,668             50,792    $2,542
             Alaska                              11,737              2,711     $147
             Arizona                            143,125             32,475    $1,872
             Arkansas                           130,110             31,368    $1,534
             California                         675,491            140,871    $8,430
             Colorado                            88,431             17,940    $1,107
             Connecticut                         81,921             17,870    $1,030
             Delaware                            25,412              5,515     $334
             District of Columbia                12,328              1,706     $129
             Florida                            466,830             98,148    $5,848
             Georgia                            242,033             53,975    $2,923
             Hawaii                              22,881              4,810     $285
             Idaho                               36,685              8,773     $447
             Illinois                           281,168             61,593    $3,441
             Indiana                            178,959             41,307    $2,178
             Iowa                                73,818             15,079     $846
             Kansas                              65,692             14,080     $780
             Kentucky                           198,836             48,592    $2,392
             Louisiana                          145,689             38,292    $1,700
             Maine                               56,646             13,632     $652
             Maryland                           111,716             21,724    $1,402
             Massachusetts                      188,613             45,137    $2,307
             Michigan                           303,099             69,424    $3,852
             Minnesota                          113,489             23,931    $1,375
             Mississippi                        129,993             33,551    $1,503
             Missouri                           197,456             44,502    $2,374

1
    SSA, Annual Statistical Supplement, 2008, issued March 2009.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)             E-1
                  Table E-1: December 2007 DI Statistics by Jurisdiction
                                                                  Annual
                                       Disabled
                   Jurisdiction                    Dependents Benefits Paid
                                     Beneficiaries
                                                               (in millions)
          Montana                           25,601            5,107            $302
          Nebraska                          40,203            8,912            $462
          Nevada                            53,086          10,613             $718
          New Hampshire                     40,178          11,226             $530
          New Jersey                       188,202          41,653            $2,523
          New Mexico                        56,661          12,777             $674
          New York                         503,928         116,553            $6,389
          North Carolina                   305,284          63,319            $3,707
          North Dakota                      14,332            2,678            $156
          Ohio                             306,402          63,552            $3,555
          Oklahoma                         117,499          25,340            $1,396
          Oregon                            92,712          16,449            $1,143
          Pennsylvania                     375,865          85,898            $4,590
          Rhode Island                      34,831            7,515            $417
          South Carolina                   159,995          33,738            $1,956
          South Dakota                      18,186            3,557            $200
          Tennessee                        226,309          49,070            $2,668
          Texas                            500,548         120,629            $6,034
          Utah                              39,327          10,350             $483
          Vermont                           20,183            4,613            $232
          Virginia                         203,412          46,039            $2,537
          Washington                       152,960          29,269            $1,915
          West Virginia                    101,006          23,912            $1,271
          Wisconsin                        141,085          30,001            $1,686
          Wyoming                           11,507            2,299            $142
          American Samoa                     1,269             763              $13
          Guam                               1,493             617              $16
          Northern Mariana Islands             249              79               $2
          Puerto Rico                      171,528          48,729            $1,752
          U.S. Virgin Islands                2,057             579              $24
          Foreign countries                 18,658            3,857            $162
          Total                          8,118,382        1,817,491          $99,086




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)             E-2
Table E-2 shows the number of disabled Supplemental Security Income (SSI) recipients
and the amount they received in December 2008. 2

                      Table E-2: December 2008 SSI Disability Statistics
                                         by Area
                                                                         Payments
                                                 Disabled                Issued in
                          Jurisdiction          Recipients            December 2007
                                                                      (in thousands)
                  Alabama                               152,376               $76,510
                  Alaska                                   9,639               $4,771
                  Arizona                                 89,444              $45,693
                  Arkansas                                91,048              $45,461
                  California                            899,395              $589,470
                  Colorado                                51,148              $25,591
                  Connecticut                             48,788              $25,040
                  Delaware                                13,556               $6,685
                  District of Columbia                    20,794              $11,450
                  Florida                               342,340              $174,583
                  Georgia                               187,489               $97,277
                  Hawaii                                  17,469               $9,745
                  Idaho                                   22,871              $11,214
                  Illinois                              235,074              $123,696
                  Indiana                               102,531               $54,085
                  Iowa                                    42,028              $20,097
                  Kansas                                  38,752              $20,400
                  Kentucky                              174,372               $87,003
                  Louisiana                             150,256               $75,721
                  Maine                                   31,749              $15,466
                  Maryland                                85,812              $46,357
                  Massachusetts                         136,448               $75,618
                  Michigan                              216,203              $118,178
                  Minnesota                               70,294              $36,152
                  Mississippi                           110,090               $54,371
                  Missouri                              115,898               $58,690
                  Montana                                 14,978               $7,273
                  Nebraska                                21,710              $10,550
                  Nevada                                  27,622              $14,849
                  New Hampshire                           15,002               $7,347

2
    SSA, SSI Recipients by State and County, 2008, issued May 2009.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)              E-3
                  Table E-2: December 2008 SSI Disability Statistics
                                     by Area
                                                                 Payments
                                             Disabled            Issued in
                       Jurisdiction         Recipients        December 2007
                                                              (in thousands)
               New Jersey                           125,580             $65,933
               New Mexico                            49,280             $24,484
               New York                             523,026            $299,886
               North Carolina                       186,099             $91,822
               North Dakota                           7,167                  $3,344
               Ohio                                 250,281            $135,110
               Oklahoma                              81,031             $41,177
               Oregon                                58,293             $29,903
               Pennsylvania                         313,020            $167,377
               Rhode Island                          27,750             $15,059
               South Carolina                        96,745             $48,322
               South Dakota                          11,540                  $5,405
               Tennessee                            150,669             $76,759
               Texas                                459,220            $225,988
               Utah                                  23,045             $11,697
               Vermont                               13,314                  $6,595
               Virginia                             122,379             $58,821
               Washington                           109,622             $59,602
               West Virginia                         76,226             $38,806
               Wisconsin                             91,411             $46,051
               Wyoming                                5,550                  $2,602
               Northern Mariana Islands                723                    $412
               Unknown                                   98                    $51
               Total                              6,317,245           $3,404,553




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)            E-4
    Table E-3 shows workload statistics at disability determination services (DDS) in Fiscal
    Year (FY) 2008, including the number of claims received and processed, costs, number
    of employees, and average processing times for DI and SSI claims. 3

                              Table E-3: FY 2008 DDS Workload Statistics
                                                                                                     Processing
                                    Initial     Total                                                   Time
                     Initial
        DDS                        Claims      Claims             DDS Costs         Employees 6        (days)
                    Receipts
                                 Processed 4 Processed 5
                                                                                                       DI     SSI
Alabama                65,181         62,546         75,641        $41,596,075                342     64          63
Alaska                  4,234          4,129          4,831          $3,858,083                20     78          78
Arizona                35,160         35,247         62,330        $29,136,899                223     94          93
Arkansas               41,965         43,285         64,658        $22,902,043                235     63          62
California            256,273       261,511         357,556       $198,593,617               1,310    86          88
Colorado               27,688         27,799         32,609        $18,580,491                133     77          77
Connecticut            23,771         23,536         28,633        $17,616,286                105     72          81
Delaware                6,925          6,242          9,183         $5,988,105                 44     97          97
District of             5,919          5,509          8,531          $5,987,299                34     78          77
Columbia
Florida               163,876       162,414         230,003       $100,169,044                832     80          83
Georgia                86,973         85,149        128,131        $52,448,208                441     88          88
Hawaii                  7,001          6,782          9,007          $5,692,256                40     84          92
Idaho                  12,002         11,372         16,615          $6,896,280                52     62          62
Illinois               96,734       100,541         144,975        $68,138,817                482     74          76
Indiana                59,267         58,842         87,124        $38,199,876                271     80          84
Iowa                   20,269         20,352         29,552        $18,670,523                122     80          83
Kansas                 20,756         20,679         31,613        $14,674,611                116     73          71
Kentucky               58,999         58,899         94,093        $39,280,761                385     83          84
Louisiana              54,071         54,510         65,180        $31,999,862                286     67          67
Maine                  12,335         12,062         15,172          $7,528,838                61     64          68
Maryland               44,526         42,832         58,763        $27,957,577                225     78          82
Massachusetts          51,718         51,021         63,449        $40,453,622                254     71          76

    3
        SSA, Office of Disability Determinations, DDS Performance Profiles, February 2009.
    4
     In May 2008, the Agency began counting Expedited Reinstatement claims as initial claims instead of
    medical continuing disability reviews. The total number of Expedited Reinstatements processed in
    FY 2008 was 12,499.
    5
      The total dispositions show the total number of all DDS cases processed, including initial claims,
    reconsiderations, continuing disability reviews, and other special cases. In May 2008, the Agency began
    counting Expedited Reinstatement claims as initial claims instead of medical continuing disability reviews.
    6
     This is the actual number of workyears—the equivalent of full-time positions—in each DDS, not the
    number of employees.


    Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                              E-5
                            Table E-3: FY 2008 DDS Workload Statistics
                                                                                                      Processing
                                   Initial     Total                                                     Time
                   Initial
    DDS                           Claims      Claims               DDS Costs         Employees 6        (days)
                  Receipts
                                Processed 4 Processed 5
                                                                                                        DI        SSI
Michigan            103,058        104,178          123,252         $72,179,008               514       83         85
Minnesota            33,463          34,556          50,220         $22,329,232               156       75         77
Mississippi          49,144          48,289          76,320         $25,907,947               260       72         69
Missouri             60,723          61,737          73,447         $29,070,791               274       61         60
Montana               6,638           6,674           9,945          $4,918,848                 43      78         81
Nebraska             11,414          11,549          17,334          $9,222,641                 78      65         64
Nevada               17,400          18,046          24,140         $11,625,528                 98      94         98
New                   9,218           9,319          10,269          $5,274,467                 45      91        101
Hampshire
New Jersey           53,811          54,346          79,019         $50,830,026               288      113        113
New Mexico           18,081          18,134          26,783         $12,059,628                 86      78         78
New York            145,252        150,299          187,645        $143,994,254               821       78         81
North Carolina       90,013          82,808         125,476         $48,387,556               437       93         94
North Dakota          3,388           3,493           5,563          $2,502,789                 25      67         72
Ohio                121,106        123,373          176,252         $75,610,439               570       90         92
Oklahoma             35,872          37,176          54,185         $23,187,209               207       85         85
Oregon               25,680          26,183          39,328         $23,077,980               163       83         87
Pennsylvania        122,054        121,703          142,130         $88,139,201               569       94         94
Puerto Rico          17,111          16,960          27,735         $14,612,254               149      130        ***
Rhode Island          9,477           9,942          12,387          $7,014,615                 40     122        131
South Carolina       47,953          46,048          68,481         $31,425,550               273       85         86
South Dakota          5,033           5,204           7,477          $3,126,011                 28      88         97
Tennessee            66,094          64,972         104,972         $47,283,932               419       92         94
Texas               194,905        198,414          284,578        $122,628,215               974       61         60
Utah                 11,193          11,162          16,429          $9,611,617                 68      87         90
Vermont               4,879           4,931           5,982          $3,554,829                 31      90         92
Virginia             55,904          54,541          76,973         $36,908,443               320       77         78
Washington           45,405          45,574          66,300         $33,329,700               235       74         75
West Virginia        26,434          26,029          40,835         $18,106,038               168       77         77
Wisconsin            43,612          40,903          59,799         $28,344,924               213       78         84
Wyoming               2,905           2,981           3,889          $2,650,167                 16      84         88
Total              2,592,863       2,594,783       3,614,794        $1,803,283,012            13,604       81       81
   *** SSI is limited to residents of the 50 States, the District of Columbia, or the Northern Mariana Islands.




   Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                E-6
        Table E-4 shows workload statistics at disability determination services (DDS) in Fiscal
        Year (FY) 2009, including the number of claims received and processed, costs, number
        of employees, and average processing times for DI and SSI claims. 7

                                Table E-4: FY 2009 DDS Workload Statistics
                    Initial         Initial                                                                   Processing
                                                   Total Claims                    10                    11
                                                                                                              Time (days)
     DDS            Claim          Claims                             DDS Costs          Employees
                                                   Processed 9
                   Receipts      Processed 8                                                                    DI         SSI
Alabama                74,197            72,384            91,103       $47,728,207                359          66          65
Alaska                  4,585             4,374             5,286         $4,252,785                20          95          94
Arizona                46,546            43,508            71,921       $30,943,723                234          82          83
Arkansas               47,353            44,624            68,175       $26,731,329                260          59          62
California            286,652           273,068           368,971      $204,512,909              1,322          77          81
Colorado               33,242            27,662            33,185       $20,093,503                135         92          93
Connecticut            26,347            24,695            36,007       $19,816,676                108         87          98
Delaware                6,179             6,138             9,453         $6,172,083                41         106         105
District of             8,736             8,323            12,126         $8,789,635                42          71          76
 Columbia
Florida               197,960           190,282           276,494      $113,036,858                907         73          78
Georgia               104,251            89,377           123,164       $56,801,976                480          96          99
Hawaii                  8,421             8,090            10,430         $6,657,130                43         82          89
Idaho                  15,617            15,021            21,698         $8,149,427                61          65          64
Illinois              105,672            96,050           140,396       $72,866,505                473          73          76
Indiana                68,603            63,552            92,707       $41,540,573                278          77          81
Iowa                   23,431            22,956            34,076       $21,018,168                129          74          80
Kansas                 24,018            21,923            33,373       $15,634,129                115         77           76
Kentucky               66,140            62,290            97,035       $43,950,143                406          86          86
Louisiana              64,036            60,790            72,848       $37,754,681                298          64          64


        7
         SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
        Performance, October 2009 and SSA, Office of Disability Determinations, August 2009.
        8
         In May 2008, the Agency began counting Expedited Reinstatement claims as initial claims instead of
        medical continuing disability reviews. The total number of Expedited Reinstatements processed in
        FY 2009 was 12,981.
        9
          The total dispositions show the total number of all DDS cases processed, including initial claims,
        reconsiderations, continuing disability reviews, and other special cases.
        10
          DDS costs were the cost allocations for FY 2009 as of August 2009. In addition to the amounts in
        Table E-4, SSA paid approximately $6.7 million in costs for the Northern Marianna Islands, the
        Virgin Islands, and overhead.
        11
          This is the actual number of workyears—the equivalent of full-time positions—in each DDS, not the
        number of employees.


        Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                   E-7
                                Table E-4: FY 2009 DDS Workload Statistics
                    Initial         Initial                                                                    Processing
                                                   Total Claims                     10                    11
                                                                                                               Time (days)
    DDS             Claim          Claims                              DDS Costs          Employees
                                                   Processed 9
                   Receipts      Processed 8                                                                    DI         SSI
Maine                  14,448            13,705            19,774         $8,238,519                 63         81          83
Maryland               50,751            43,938            63,116        $30,288,852                231         85          90
Massachusetts          58,385            52,496            74,062        $43,767,920                273         86          93
Michigan             115,664            107,181           126,332        $77,738,934                536         97         101
Minnesota              37,917            35,579            52,069        $24,312,107                163         71          75
Mississippi            52,463            50,331            82,814        $27,051,302                270         75          71
Missouri               71,564            65,796            80,302        $34,211,666                294         61          62
Montana                 8,186             7,606            11,011         $5,629,003                 47         79          81
Nebraska               13,030            12,097            17,974         $9,983,203                 80         68          67
Nevada                 21,816            18,874            26,712        $13,168,413                105         86          96
New                    10,951             9,919            11,384         $5,539,012                 46         87          94
 Hampshire
New Jersey             57,213            55,297            77,724        $52,956,224                285         98         103
New Mexico             21,457            19,367            26,829        $13,367,889                 83         79          81
New York             162,391            156,742           206,019       $150,877,764                822         70          75
North Carolina         99,531           100,416           147,413         54,905,568                471        103         105
North Dakota            3,756             3,361              5,058        $2,584,438                 24         71          83
Ohio                 135,587            120,609           183,918        $83,696,332                613         89          91
Oklahoma               42,946            39,163            58,590        $26,912,670                226         74          79
Oregon                 32,746            29,438            45,635        $25,986,744                176         76          78
Pennsylvania         134,190            123,351           148,065        $94,697,966                598         93          95
Puerto Rico            20,632            20,109            27,399        $20,156,057                147        121         ***
Rhode Island           11,417            10,008            14,506         $8,522,733                 43        120         134
South Carolina         56,146            51,272            71,055        $34,790,045                298         92          93
South Dakota            5,739             5,318              7,377        $3,542,739                 30         84          97
Tennessee              83,016            72,421           114,249        $55,418,891                457         91          94
Texas                227,117            209,817           302,393       $132,003,347                998         59          61
Utah                   13,802            11,765            17,481        $11,036,794                 71         92          97
Vermont                 5,685             5,256              7,428        $4,259,396                 33         89         87
Virginia               63,518            55,783            78,301        $38,498,241                338         84          89
Washington             51,130            48,951            74,631        $37,095,271                255         67          71
West Virginia          28,135            26,401            44,833        $20,113,163                176         79          81
Wisconsin              48,651            45,951            67,627        $30,667,950                220        108         116
Wyoming                 3,463             3,186              4,079        $2,684,903                 16         72          74
Total                2,975,429         2,766,611          3,894,608 $1,971,154,496                14,199       80           83
        *** SSI is limited to residents of the 50 States, the District of Columbia, or the Northern Mariana Islands.




        Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                   E-8
Table E-5 shows workload statistics at the Federal Disability Processing Branches and
Flexible Disability Units in FY 2009 through September 25, 2009. 12

             Table E-5: FY 2009 Disability Processing Branches and Flexible
            Disability Units Workload Statistics (Through September 25, 2009)
                                         Initial           Initial           Total       Pending
                  Unit 13
                                        Receipts        Dispositions      Dispositions   Claims
        Mid-America Program
        Service Center Flexible                   359               36           1,000       370
        Disability Unit
        International Program
                                                1,369             1,178          1,451      1,356
        Service Center
        Federal DDS                             9,790             7,518          7,539      3,017
        Great Lakes                               181              163           3,207       785
        Western Program Service
                                                2,295             1,995          4,531      1,967
        Center
        Guam                                      868              775             948       359
        Virgin Islands                            330              325             361       100
        Office of Central
                                                7,545             8,718          8,718      2,091
        Operations
        South Eastern Payment
                                                6,354             6,120          6,122      1,221
        Service Center
        Mid-Atlantic Payment
                                                3,205             3,073          3,332       842
        Service Center
        Northeastern Payment
                                                3,712             3,425          3,425      1,064
        Service Center
        TOTAL                                  36,008            33,326         40,634     13,172




12
     SSA, Office of Disability Determinations, September 2009.
13
 The Seattle, Denver, Dallas, and Boston Regions have Disability Processing Branches, but these units’
workload statistics for FY 2009 were included in the DDS workload numbers.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                          E-9
Table E-6 shows the attrition rates at DDSs in FY 2008 and FY 2009. 14

                         Table E-6: DDS Attrition Rates FYs 2008-2009
             DDS                            FY 2008                         FY 2009
                                 Examiner             All Staff   Examiner            All Staff
Alabama                               7.6                  6.5       13.5                  8.9
Alaska                               46.5                 27.5       36.0                 40.0
Arizona                              21.4                 14.1       15.9                 11.4
Arkansas                             11.9                  4.9       13.5                 10.0
California                            8.4                  9.4        6.4                  7.7
Colorado                             14.1                  9.7       11.5                 10.6
Connecticut                           4.9                  3.9       23.6                 19.1
Delaware                             24.7                 21.5       23.5                 33.8
District of Columbia                  4.2                 12.1        2.9                  6.8
Florida                              19.7                 15.3       17.4                  9.5
Georgia                              19.9                 13.7       11.8                  6.6
Hawaii                                9.1                  4.5       14.6                  7.3
Idaho                                11.8                  9.9       16.5                  8.6
Illinois                             13.7                 12.4       10.1                  8.2
Indiana                              15.3                  9.2       13.7                  8.3
Iowa                                  0.8                  3.5        0.0                  1.4
Kansas                               12.0                  8.0       26.2                 21.4
Kentucky                             14.9                 14.3       15.3                  8.1
Louisiana                            34.0                 19.9       27.7                 12.8
Maine                                40.4                 18.9        1.4                  4.9
Maryland                             16.7                 15.9       14.1                  8.7
Massachusetts                         3.6                  3.4        4.8                  8.3
Michigan                              7.0                  7.1        7.7                  5.2
Minnesota                            11.7                  9.5        3.1                  5.4
Mississippi                          13.9                 10.9        9.0                  5.7
Missouri                             11.4                  5.8       17.5                  8.2
Montana                               2.7                  9.3       11.7                 13.7
Nebraska                             15.2                  9.8        4.1                  2.2
Nevada                               16.7                 10.5       13.1                 16.4
New Hampshire                           0                  1.3        0.0                  0.0
New Jersey                           12.6                 11.9        7.0                  6.4
New Mexico                            3.5                  6.0       22.3                  10.7
New York                              8.5                  8.3        7.9                   6.8


14
     SSA, Office of Disability Determinations, September 2009.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                        E-10
                     Table E-6: DDS Attrition Rates FYs 2008-2009
           DDS                         FY 2008                             FY 2009
                           Examiner              All Staff     Examiner              All Staff
North Carolina                  13.3                 14.5           23.3                  16.3
North Dakota                     0.0                  2.3           27.2                  33.8
Ohio                             9.8                 10.2           12.7                  12.6
Oklahoma                        12.2                  8.0            7.0                   4.7
Oregon                          31.4                 17.6           22.7                  11.9
Pennsylvania                     9.4                  6.9           19.3                  12.7
Puerto Rico                      5.9                  4.0            6.9                   7.2
Rhode Island                     2.7                 19.7            2.4                   8.9
South Carolina                  12.5                 10.1            7.2                   6.8
South Dakota                    27.9                 25.7            8.4                   9.4
Tennessee                       15.4                 10.8           12.4                   9.2
Texas                           10.3                  8.5           11.2                   8.0
Utah                             1.5                  9.5           13.3                  12.5
Vermont                         10.5                 13.8           16.7                   9.3
Virginia                        17.4                 11.2           16.1                  13.5
Washington                       8.8                 14.9            7.4                   8.2
West Virginia                    9.7                 11.3            8.0                   7.0
Wisconsin                        8.9                 10.2            9.2                  10.5
Wyoming                         22.7                 23.3            0.0                   3.3
National                        12.5                 10.5           12.2                   9.2




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                       E-11
                                                                                 Appendix F

Furlough and Hiring Freeze Status by Disability
Determination Services
Table F-1 shows each disability determination services’ (DDS) furlough and hiring
freeze status as of October 2009.

               Table F-1: Status of Furlough and Hiring Freeze by DDS
                                   Hiring
                  Furlough
      DDS                          Freeze                            Remarks
                   Status
                                   Status
 Alabama         No furlough.   No hiring
                                freeze.
 Alaska          No furlough.   No hiring
                                freeze.
 Arizona         No furlough.   Hiring freeze
                                but DDS
                                exempt.
 Arkansas        No furlough.   No hiring
                                freeze.
 California      Furlough in    Hiring freeze   California State employees, including DDS
                 place.         but DDS         employees, are subject to 3 furlough days per month
                                exempt.         through June 30, 2010. They are exempt from fixed
                                                furlough days. They will continue to accrue 3 flex
                                                furlough days per month, and the DDS will be open
                                                on the fixed furlough days. All State employees
                                                covered by the original and amended furlough plans
                                                must use their accrued furlough days before using
                                                vacation, annual leave, personal holiday, holiday
                                                credit, personal leave plan credit, or compensatory
                                                time off.
                                                The State has changed overtime rules to eliminate
                                                the opportunity to earn overtime pay in weeks in
                                                which a furlough, sick, or annual leave day is taken.
                                                These 3 furlough days translate to an approximate
                                                13.8 percent reduction in monthly pay.
                                                A fourth furlough day per month is possible.
 Colorado        Furlough in    Hiring freeze   Information technology staff, employed by the State
                 place but      but DDS         yet support the DDS, are not exempt from the
                 DDS            exempt.         furlough.
                 exempt.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                          F-1
               Table F-1: Status of Furlough and Hiring Freeze by DDS
                                   Hiring
                  Furlough
        DDS                        Freeze                             Remarks
                   Status
                                   Status
 Connecticut     Furlough in    Hiring freeze   The Administrator took 1 voluntary furlough day.
                 place.         but DDS         The Governor reached an agreement with the union
                                exempt.         on several concessions to avoid layoffs. The DDS
                                                will be shut down 7 days; 1 in FY 2009 and 3 each in
                                                FYs 2010 and 2011. In addition to the mandatory
                                                furlough days, State employees are being
                                                encouraged to voluntarily reduce their tours of duty,
                                                but no one has done so.
 Delaware        No furlough.   Hiring freeze
                                but DDS
                                exempt.
 District of     No furlough.   No hiring
 Columbia                       freeze.
 Florida         No furlough.   No hiring
                                freeze.
 Georgia         No furlough.   No hiring
                                freeze.
 Hawaii          Furlough       Hiring freeze   In October 2009, the Governor and the Hawaii
                 expected to    for DDS.        Government Employees Association agreed on a
                 take effect                    plan to furlough all State employees 18 days in
                 soon—DDS                       FY 2010 and 24 days in FY 2011.
                 not expected
                 to be
                 exempt.
 Idaho           No furlough.   Hiring freeze
                                but DDS
                                exempt.
 Illinois        Furlough in    No hiring       The DDS’ bargaining employees are not subject to
                 place but      freeze.         furloughs. The DDS’ non-bargaining employees are
                 DDS                            the only exemption to the Department of Human
                 partially                      Services’ furloughs.
                 exempt.                        The Governor's office reviews all approvals for initial
                                                postings of positions in addition to a second review
                                                for final approval to hire. In the past, this has
                                                resulted in significant delays in hiring at the DDS.
 Indiana         No furlough.   No hiring       The State has not implemented a hiring freeze;
                                freeze.         however, each vacancy is considered individually.
                                                The State added an additional layer of review to fill
                                                vacancies, resulting in a protracted hiring process.
 Iowa            No furlough.   Hiring freeze
                                but DDS
                                exempt.
 Kansas          No furlough.   No hiring       The DDS has been allowed to hire, but it has not
                                freeze.         been allowed to promote into a couple of key
                                                positions.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                              F-2
               Table F-1: Status of Furlough and Hiring Freeze by DDS
                                   Hiring
                  Furlough
      DDS                          Freeze                             Remarks
                   Status
                                   Status
 Kentucky        No furlough.   No hiring
                                freeze.
 Louisiana       No furlough.   Hiring freeze
                                but DDS
                                exempt.
 Maine           Furlough in    Hiring freeze   The State imposed 10 furlough days in both
                 place but      but DDS         FYs 2010 and 2011 (total of 20). In the DDS,
                 DDS            exempt.         40 staff are exempted from the furlough; however,
                 partially                      24 staff are not exempt.
                 exempt.                        The DDS is exempt from a State-wide hiring freeze,
                                                but each vacancy must be individually exempted
                                                which delays replacement and backfill hiring.
 Maryland        Furlough in    No hiring       The State is treating DDS employees as essential
                 place but      freeze.         personnel (similar to police and firefighters), so the
                 DDS                            DDS will not close on the 5 service reduction days
                 exempt.                        when all other State offices will close in FY 2010.
 Massachusetts   Furlough in    No hiring       The State imposed 3 to 9 furlough days for DDS
                 place but      freeze.         managers, effective November 27, 2009 through
                 DDS                            June 30, 2010. The furlough obligation is tiered
                 partially                      based on salary as follows:
                 exempt.                        $50,000 to $69,999 subject to 3 furlough days,
                                                $70,000 to $89,999 subject to 6 furlough days, and
                                                $90,000 and up subject to 9 furlough days.
 Michigan        No furlough.   No hiring       A Continuing Resolution has been signed through
                                freeze.         October 2009. There is no indication whether
                                                furloughs or freezes will be included in the
                                                FY 2010 budget.
                                                The State has imposed agency hiring limits;
                                                however, the DDS has been successful in being
                                                exempt from hiring limits based on their 100 percent
                                                Federal funding.
 Minnesota       No furlough.   No hiring       With additional documentation provided to
                                freeze.         demonstrate the critical need to fill positions, all DDS
                                                personnel requests in Minnesota have been
                                                approved.
 Mississippi     No furlough.   No hiring
                                freeze.
 Missouri        No furlough.   No hiring       The State is experiencing greater budget shortfalls
                                freeze.         than projected and is considering more layoffs in
                                                State agencies. The DDS has been exempted in the
                                                past, and there is no indication there is a change in
                                                philosophy.
 Montana         No furlough.   No hiring
                                freeze.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                               F-3
               Table F-1: Status of Furlough and Hiring Freeze by DDS
                                   Hiring
                  Furlough
      DDS                          Freeze                            Remarks
                   Status
                                   Status
 Nebraska        No furlough.   No hiring
                                freeze.
 Nevada          Furlough in    Hiring freeze   The Nevada Board of Examiners (which includes the
                 place but      but DDS         Governor) met, and based on health, safety, and
                 DDS            exempt.         direct client service, exempted 94 adjudicative staff
                 partially                      (Examiners, Medical Consultants, Unit Supervisors,
                 exempt.                        and Call Center staff) from the furlough. Of the non-
                                                adjudicative staff, 9 are not exempt, including the
                                                Bureau Chief, Operations Manager, Professional
                                                Relations Officer, and other administrative clerical
                                                staff. Furloughed staff are required to take one
                                                floating furlough day per month.
                                                Adjudicative staff will continue to work overtime.
                                                Furloughed staff are prohibited from working
                                                overtime within the pay period they are furloughed,
                                                but are being encouraged to take advantage of
                                                overtime in the non-furlough weeks to minimize the
                                                financial loss and maintain productivity.
                                                Due to a change (cuts) in retirement benefits
                                                effective July 1, 2009, the State is providing
                                                disincentives for possible retirees to stay on beyond
                                                June 30, 2009. The DDS will have to consider hiring
                                                from the layoff list for positions such as their
                                                Information Technology supervisor. However, if
                                                there is no interest or the candidate does not work
                                                out, they may post for an outside hire.
 New             No furlough.   Hiring freeze   The DDS will need to give consideration to State
 Hampshire                      but DDS         employees laid off from other departments when
                                exempt.         filling positions.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                            F-4
               Table F-1: Status of Furlough and Hiring Freeze by DDS
                                   Hiring
                  Furlough
      DDS                          Freeze                            Remarks
                   Status
                                   Status
 New Jersey      Furlough in    Hiring freeze   Although the State had initially agreed to exempt
                 place.         for DDS.        DDS employees from State-wide furloughs, a new
                                                Memorandum of Agreement between the State and
                                                labor union removes that exemption. Under the
                                                agreement, the DDS is subject to 10 furlough days
                                                between July 2009 and June 2010. The furlough
                                                days consist of 8 self-directed unpaid leave days,
                                                the day after Thanksgiving in 2009, and President’s
                                                Day in 2010. Furthermore, the State has designated
                                                the day after Thanksgiving in 2010 as a paid holiday.
                                                The agreement also calls for a deferment of the
                                                July 2009 3.5 percent pay raise until
                                                January 2011, leaving in place the scheduled
                                                July 2010 raise. In recognition of the agreement to
                                                defer the pay raise and to institute furloughs, the
                                                State agreed not to layoff any workers through
                                                December 2010. It also agreed to establish a Paid
                                                Leave Bank that will credit every employee with
                                                7 days of paid leave to be accrued through
                                                June 30, 2010 that may be carried over indefinitely.
 New Mexico      No furlough.   No hiring
                                freeze.
 New York        No furlough.   Hiring freeze   The DDS has potential layoffs, work schedule
                                but DDS         reductions, and retirement bonuses. Requests for
                                exempt.         exemption from both the hiring freeze and layoffs
                                                are pending in the Office of the Governor. However,
                                                the DDS was granted permission to hire
                                                200 employees. Expansion of the State’s work
                                                schedule reduction program, introduction of
                                                retirement bonuses, and a new cost-saving tier to
                                                the State retirement pension system were
                                                announced on June 5, 2009 but have not been
                                                implemented. These negotiated agreements
                                                between the Governor and the labor unions require
                                                legislative approval which is being delayed by recent
                                                upheaval in the New York State Senate. The State
                                                Legislature will pick up these issues when it
                                                reconvenes.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                         F-5
                  Table F-1: Status of Furlough and Hiring Freeze by DDS
                                     Hiring
                    Furlough
        DDS                          Freeze                             Remarks
                     Status
                                     Status
 North Carolina    No furlough.   No hiring       All State employees had forced reduction in pay
                                  freeze.         equal to ½ of 1 percent for FY 2009 with the total of
                                                  the pay reduction to be taken out of employee
                                                  payroll checks in May and June 2009. Also,
                                                  employees will be required to take 10 hours of paid
                                                  leave between June and December 2009. The
                                                  10 hours of paid leave will allow the employees to
                                                  recoup the ½ of 1 percent lost in May and
                                                  June 2009.
                                                  The DDS hiring process is more cumbersome due to
                                                  the need to obtain "freeze releases" to fill positions
                                                  not deemed "critical." The DDS has, however,
                                                  received approval to designate DDS
                                                  specialists/examiners, as well as Medical and
                                                  Psychological Consultants, as "critical." Therefore,
                                                  the DDS has been able to recruit and hire for these
                                                  positions. Also, the DDS has been able to obtain an
                                                  exception to fill positions not on the "critical" list.
 North Dakota      No furlough.   No hiring
                                  freeze.
 Ohio              Furlough in    Hiring freeze   A budget has been signed for FYs 2010-2011. The
                   place.         but DDS         State announced furloughs or Cost-Savings Days
                                  exempt.         effective July 2009. There will be Cost-Savings
                                                  Days in each of the next 2 FYs, for a total of
                                                  20 days. All employees are subject to the
                                                  Cost-Savings Days. The State is moving forward
                                                  with the cost savings provisions. Each pay period
                                                  includes a pay reduction of 3.076 percent, which
                                                  equates to the 10 self-directed cost savings days per
                                                  FY. Additionally, there is a provision that no
                                                  overtime can be worked in a week a Cost-Savings
                                                  Days is taken by the employee.
                                                  The DDS is under a hiring freeze but received
                                                  approvals to hire. Pay will be reduced by
                                                  3.076 hours each pay period throughout the year
                                                  beginning July 2009.
 Oklahoma          No furlough.   No hiring
                                  freeze.
 Oregon            Furlough in    Hiring freeze   For FYs 2010 and 2011, the number of furlough
                   place.         but DDS         days depends on salary range. A pay freeze took
                                  exempt.         effect on September 1, 2009. The entire DDS is
                                                  subject to a 10-day State office shutdown schedule
                                                  and an additional 2 to 4 more furlough days
                                                  dependent upon salary. The scheduled shutdown
                                                  days begin in October 2009 and end May 2011.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                             F-6
                Table F-1: Status of Furlough and Hiring Freeze by DDS
                                    Hiring
                   Furlough
        DDS                         Freeze                              Remarks
                    Status
                                    Status
 Pennsylvania     No furlough.   Hiring freeze   The DDS is subject to a case-by-case authorization
                                 but DDS         requirement for hiring.
                                 exempt.
 Puerto Rico      No furlough.   Hiring freeze
                                 but DDS
                                 exempt.
 Rhode Island     Furlough in    Hiring freeze   The Governor signed an Executive Order that
                  place.         for DDS.        includes 12 furlough days, beginning
                                                 September 4, 2009. Each of the remaining days will
                                                 be around holidays. Meetings between the
                                                 Governor and union are ongoing, which may result
                                                 in possibly averting furlough days.
 South Carolina   No furlough.   No hiring
                                 freeze.
 South Dakota     No furlough.   Hiring freeze   The DDS hiring is considered on a case-by-case
                                 for DDS.        situation.
 Tennessee        No furlough.   Hiring freeze
                                 but DDS
                                 exempt.
 Texas            No furlough.   No hiring
                                 freeze.
 Utah             No furlough.   No hiring
                                 freeze.
 Vermont          No furlough.   No hiring       The Administration had been negotiating with the
                                 freeze.         unions. The negotiations had been aimed at settling
                                                 the $7.4 million budget shortfall without layoffs
                                                 through a combination of furloughs, on-payment for
                                                 holidays, reduced health insurance benefits, and
                                                 other employee give-backs.
                                                 The Administration will now proceed to obtain the
                                                 savings through elimination of vacant positions and
                                                 State-wide layoffs of 200 to 300 employees.
                                                 The DDS has been exempted from layoffs and the
                                                 State is allowing them to establish, recruit for, and fill
                                                 vacant positions.
 Virginia         Furlough in    Hiring freeze   There will be a 1-day furlough on May 28, 2010.
                  place.         but DDS         However, a new governor will be in office effective
                                 exempt.         January 2010, therefore, this may change.
                                                 While not subject to a general hiring freeze, the DDS
                                                 will have to postpone clerical hiring if and when
                                                 layoffs occur. The DDS will have to give qualified
                                                 clerical employees in such agencies with layoffs
                                                 priority consideration for positions in the DDS.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                               F-7
                 Table F-1: Status of Furlough and Hiring Freeze by DDS
                                    Hiring
                   Furlough
      DDS                           Freeze                             Remarks
                    Status
                                    Status
 Washington       No furlough.   Hiring freeze   The DDS is waiting to hear whether it will get a
                                 but DDS         similar exception to the hold on salary increases,
                                 exempt.         equipment purchases and contracts. Pay
                                                 restrictions are in place.
 West Virginia    No furlough.   Hiring freeze
                                 but DDS
                                 exempt.
 Wisconsin        Furlough in    No hiring       The Governor has issued an Executive Order
                  place.         freeze.         requiring that all State employees take 8 furlough
                                                 days in each of the next 2 FYs, including the DDS.
                                                 Details of the implementation of the furlough are still
                                                 being worked out. The first furlough day is expected
                                                 to be in October 2009.
                                                 There is no State-wide hiring freeze in Wisconsin;
                                                 however, hiring authority is often delayed by the
                                                 State as the process for gaining approval to post
                                                 vacancies has become more complex.
 Wyoming          No furlough.   No hiring       Agencies can request hiring on a case-by-case
                                 freeze.         basis which must be approved by the Governor’s
                                                 office. The DDS Administrator and Parent Agency
                                                 have requested authority to hire three positions.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                            F-8
                                                                                   Appendix G

Other State Budget Issues Affecting Disability
Determination Services and Disability Claims
Processing
The Social Security Administration’s (SSA) Regional Commissioners and their staffs
assisted us in gathering information about State budget issues affecting disability
determination services (DDS) and disability claims processing. Table G-1 list issues
identified by certain States.

 Table G-1: State Budget Issues Affecting DDSs and Disability Claims Processing

           State                          Issues Identified by SSA Regions

California         The SSA field offices were impacted by the number of calls from current
                   beneficiaries asking questions about budget issues. For the same reason, the
                   teleservice centers were also adversely impacted.
Connecticut        The State furlough is having a negative impact on DDS performance. The State has
                   imposed 4 furlough days in Calendar Year 2009 and 3 more in 2010. All furlough
                   days are tied to State holidays when normal leave usage runs high. While this does
                   have an impact, it is minimized as everything but essential services in the State
                   shuts down on the furlough days.
Delaware           The State imposed a 2.5-percent pay reduction on employees, including those of the
                   DDS, for Fiscal Year (FY) 2010, which began July 1, 2009. In addition, employees’
                   health insurance premium payments have increased by 2 percent.
                   Three experienced DDS employees hastened their retirements because they feared
                   possible effects of the recently imposed pay reduction on their pensions.
                   The DDS is not able to hire clerical employees as a result of the State’s budget
                   situation.
Florida            The DDS no longer has the authority to grant performance based salary increases;
                   however, increases for additional duties or promotion have not been impacted yet.
                   The 2009 Legislative session removed the DDS from exemption of additional budget
                   oversight, which may, in the future, prevent or delay salary increases for
                   promotions/added duties and may possibly restrict future hiring (that is, in FY 2011).
Georgia            The cost-of-living increase originally scheduled for January 2009 was rescinded
                   (before it was implemented).
Illinois           Hiring freeze but DDS exempt. Additionally, since July 1, 2009, DDS management
                   staff scheduled for annual evaluation and raises have not received any increase. All
                   management increases are currently frozen.
Kansas             The attrition rate remains very high, especially for examiner and management
                   positions (losing some of their more experienced staff to SSA, Veterans Affairs, and
                   other better paying jobs), partly due to the fact that there has been no change in their
                   salary schedule (no step increases and minimal cost of living increases).




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                            G-1
Table G-1: State Budget Issues Affecting DDSs and Disability Claims Processing

        State                             Issues Identified by SSA Regions

Maine              One-third of the DDS staff is subject to a State furlough. There are 10 shutdown
                   days in each of FYs 2010 and 2011. This, along with hiring and pay freezes, limits
                   or reduces the DDS’ ability to provide prompt determinations.
Maryland           The State applied the following provisions to its employees, including those of the
                   DDS, between January 14 and June 30, 2009:
                   (a) All employees were required to forego the equivalent of 2 days’ pay.
                   (b) Employees earning $40,000 to $59,999 had to take 16 furlough hours in
                       addition to the aforementioned reduction of 2 days’ pay.
                   (c) Employees earning $60,000 or more had to take 24 furlough hours in addition to
                       the aforementioned reduction of 2 days’ pay.
                   The State applied, effective August 26, 2009, both pay reductions and furlough days
                   on State employees for FY 2010, which began on July 1, 2009.
                   (a) As of August 28, 2009, DDS employees are exempt from having to take
                       furlough days.
                   (b) DDS employees are subject to the following pay reductions.
                        •   Employees earning $39,999 or less will experience a temporary pay
                            reduction equivalent to 3 days’ pay.
                        •   Employees earning $40,000 or more will experience a temporary pay
                            reduction equivalent to 5 days’ pay.
                   The pay reductions will be apportioned over 20 pay periods beginning with the pay
                   period on September 23, 2009 and ending June 29, 2010.
Michigan           While State DDS disability examiners and medical consultants were exempted from
                   furloughs, all other DDS staff had to take 6 specified furlough days in FY 2009.
                   Furlough days have complicated the State’s productivity efforts. The State has put
                   into place a Workload Emergency to allow managers to do bargaining unit work
                   under its Collective Bargaining Agreement with represented staff. Mandatory
                   overtime has been put into place. Such measures mitigate the impact of the furlough
                   days, but these measures would likely have been put into place to address the
                   increasing initial claims workload, even had there been no furloughs. While the
                   State is on pace to complete its budgeted workload, receipts far outpace the
                   budgeted workload.
Mississippi        There could be an increase in attrition and/or retirements because of restrictions
                   imposed by the State Legislature. Language was placed in the Agency's
                   Appropriation Bill for FY 2010 by the State Legislature that prohibits pay increases
                   for reclassifications and restricts pay increases for promotions. According to the
                   DDS, reclassification of the examiner position is essential for staff retention and
                   recruitment.
                   Retention and recruitment are the issues of greatest concern with regard to human
                   resources. The following language was placed in each Agency's Appropriation Bill
                   and includes those components receiving Federal funding: “Unless otherwise
                   authorized in this act, no State agency shall take any action to promote or otherwise
                   award salary increases through reallocation, reclassification, realignment,
                   educational benchmark, career ladder, equity salary adjustment, or any other means
                   to increase salaries of employees or positions..."




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                           G-2
Table G-1: State Budget Issues Affecting DDSs and Disability Claims Processing

       State                              Issues Identified by SSA Regions

Nebraska           As of October 2009, the State Legislature requires any State agency verify the legal
                   residency status of anyone applying for public benefits. If the attestation form is not
                   obtained, the DDS cannot process the claim. Obtaining a signed attestation from
                   every applicant will inevitably add to case processing time, and in some cases, will
                   delay the effectuation of an otherwise completed determination. SSA’s Office of
                   General Counsel sent a letter to the DDS indicating this law does not pertain to the
                   DDS since the DDS makes medical determinations on behalf of SSA for federal
                   benefit programs, not State benefits. SSA verifies residency status in the process of
                   determining eligibility for federal benefits.
New Jersey         The State DDS staff will be subject to 10 furlough days to be taken between
                   July 2009 and June 2010. Eight of those days will be self-directed. The remaining
                   2 days will occur on the days following Thanksgiving and President’s Day. A
                   3.5-percent pay raise scheduled for July 2009 has been delayed until January 2011.
                   In any week in which a staff member has taken a furlough day(s), overtime will be
                   permitted to be worked only up to the number of furlough hours taken. Furthermore,
                   those hours will be compensated as straight-time rather than time and one-half pay.
                   The New Jersey State Legislature enacted an Early Retirement Incentive package in
                   Calendar Year 2008, resulting in the loss of 16 experienced staff members including
                   the Director of Operations. Additionally, the discontent caused by the furloughs may
                   be contributing to some employees’ decisions to retire this FY.
                   The State established a Paid Leave Bank that has credited every employee with
                   7 days of paid leave. Those days may be used in lieu of vacation days and may be
                   carried over indefinitely. While there is no cost to the employee, SSA will be paying
                   for the additional time off through the DDS operating budget.
                   Travel expenses incurred by trainees have been delayed since July 2009. Some
                   State checks bounced after overnight travelers presented them for payment to
                   hotels. Funds have subsequently been made available for payment.
New York           There has not been a decrease in pay to DDS staff; however, certain management
                   officials did not receive scheduled pay increases.
North Carolina     All State employees received a 0.5 percent reduction in pay based on their annual
                   salary for the months of May and June 2009, which was split between the 2 months.
                   In exchange for this reduction in pay, employees were given 10 hours of paid
                   “furlough” leave to be taken anytime (based on supervisor approval) between June
                   and December 31, 2009. This action impacted approximately 520 DDS staff
                   employed as of June 2009, and will result in around 5,200 hours of leave being taken
                   between June and December 2009. The estimated productivity loss resulting from
                   the additional leave to be taken has been determined to equate to approximately
                   2.5 full time positions.
                   The DDS hiring process is more cumbersome because of the need to obtain "freeze
                   releases" to fill positions not deemed "critical." The DDS has, however, received
                   approval to designate DDS specialists/examiners, as well as Medical and
                   Psychological Consultants, as "critical" and has therefore been able to recruit and
                   hire for these positions. Also, the DDS has been able to obtain an exception to fill
                   positions not on the "critical" list.
Ohio               All employees are subject to 10 furlough days in FYs 2010 and 2011, so they receive
                   less pay than they would have had there been no furlough. While the DDS remains
                   productive, time lost to furlough days is definitely making it more difficult for the DDS
                   to process its budgeted workload.



Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                             G-3
Table G-1: State Budget Issues Affecting DDSs and Disability Claims Processing

      State                                Issues Identified by SSA Regions

Oregon             In FY 2009, DDS managers were subject to furloughs.
                   In FY 2010, it is anticipated the union will ratify a contract that calls for the closure of
                   State offices, including the DDS, for 7 work days. In total for this period, those
                   making $3,100 per month and above (all journey level adjudicators and managers)
                   will be subject to 14 furlough days, which includes the 7 days the DDS will be closed.
                   Those below that pay range will have a total of 10 furlough days, again with
                   7 accounted for by the DDS closure. Increased hiring and overtime could offset the
                   impact of these furloughs.
Pennsylvania       DDS employees received one partial paycheck and missed one entire paycheck at
                   the beginning of the FY, which began on July 1, 2009. They have received the pay
                   they missed and are now being paid regularly.
                   Three DDS employees hired from other State agencies returned to those agencies
                   because of the budget uncertainty at the beginning of FY 2010, which did not apply
                   to those other State agencies.
                   The DDS, while not subject to a general hiring freeze, had to postpone clerical hiring
                   because of potential layoffs in other State agencies. The DDS will have to give
                   qualified clerical employees in such agencies priority consideration for positions in
                   the DDS.
Puerto Rico        There have not been any decreases in pay. However, in January 2009, the
                   Commonwealth implemented a freeze on hiring, promotions (including career
                   ladder), and pay increases. Additionally, payment for unused sick leave was
                   suspended in February 2009, resulting in increased sick leave usage.
                   In March 2009, programs were announced for a Voluntary Permanent Reduction in
                   Work Schedule, and a Program for Voluntary Resignation with Incentives. Two DDS
                   employees took advantage of the resignation package; however, no one in the DDS
                   took advantage of the work schedule reduction program. In June 2009, two
                   experienced staff members took advantage of early retirement incentives that were
                   offered by the Commonwealth.
                   In December 2008, SSA took over payments for the DDS’ medical consultants,
                   consultative examination providers, and certain medical evidence of record
                   providers. This action was taken in response to the Department of the Treasury’s
                   failure to issue payments to these individuals and entities on a timely basis. The
                   delayed payments affected the DDS’ ability to process cases in a timely manner as it
                   impacted the production of the medical consultants; made it more difficult to
                   schedule consultative examinations; and hindered their attempts to collect medical
                   evidence of record in a timely manner. This process remains in effect pending a
                   detailed action plan from the DDS’s parent agency. To date, over $4 million has
                   been sent to the Office of Finance for payment.
Rhode Island       The State announced a 12-day furlough program that is expected to include the
                   DDS. Negotiations are in process that may avert this action. Any furlough will have
                   a serious impact on the DDS, as there is already a shortage of staff due to years of
                   hiring restrictions. The DDS case processing time and pending levels are already
                   suffering despite ongoing, significant Federal assistance.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                G-4
Table G-1: State Budget Issues Affecting DDSs and Disability Claims Processing

     State                                Issues Identified by SSA Regions

Tennessee          The DDS has not been able to secure raises for its staff (including cost of living
                   raises). Also, it has been unable to secure upgrades/reclassifications for its clerical
                   staff that have been pending for several years and were necessitated by
                   implementation of SSA’s electronic disability folder.
                   The State has cut its workforce in many “support” areas and requests for support are
                   sometimes delayed, such as with the ordering of supplies, personnel transactions,
                   repairs to audio-visual equipment, etc.
Vermont            Budget-related changes in the State's hiring approval process, provisions for rehiring
                   reduction in force employees, and the requirements of the early retirement
                   incentive legislation have contributed to the slowing of the DDS hiring process. This
                   is one factor contributing to the growth of DDS case backlogs and case processing
                   delays.
Washington         DDS employees will not receive a previously negotiated cost of living increase.
Wisconsin          There will be a deduction in pay for non-exempt staff beginning September 2009 to
                   account for the upcoming 8 furlough days. Exempt staff will have the deduction
                   when they take a furlough day. Mandatory overtime was implemented effective
                   August 24, 2009 to handle the backlog and pending claims.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                             G-5
                                                                              Appendix H

Budget Website Information by State
Table H-1 lists Website resources for State budgets as of September 14, 2009.

   Table H-1: Budget Website Information by State as of September 14, 2009
         State                                        Website
  Alabama           http://budget.alabama.gov/
  Alaska            http://www.gov.state.ak.us/omb/
  Arizona           http://www.ospb.state.az.us/
  Arkansas          http://www.arkansas.gov/dfa/budget/budget_index.html
  California        http://www.ebudget.ca.gov/
  Colorado          http://www.colorado.gov/cs/Satellite?c=Page&cid=1193823054606&pagenam
                    e=GovRitter%2FGOVRLayout
  Connecticut       http://www.ct.gov/governorrell/cwp/view.asp?A=1317&Q=425180
  Delaware          http://budget.delaware.gov/fy2010/budget2010.shtml
  District of       http://cfo.dc.gov/cfo/cwp/view,a,1321,q,589949,cfoNav,%7C33210%7C.asp
  Columbia
  Florida           http://www.myflorida.com/
  Georgia           http://www.opb.state.ga.us/
  Hawaii            http://hawaii.gov/budget/
  Idaho             http://legislature.idaho.gov/budget/index.htm
  Illinois          http://www.state.il.us/budget/
  Indiana           http://www.in.gov/sba/index.htm
  Iowa              http://www.iowa.gov/
  Kansas            http://www.kansas.gov/KanView/
  Kentucky          http://osbd.ky.gov/default.htm
  Louisiana         http://doa.louisiana.gov/OPB/state-budget.htm
  Maine             http://www.maine.gov/governor/baldacci/policy/budget/index.html
  Maryland          http://dbm.maryland.gov/agencies/operbudget/Pages/2010OperatingBudgetD
                    ocuments.aspx
  Massachusetts     http://www.mass.gov/?pageID=afsubtopic&L=4&L0=Home&L1=Budget%2c+
                    Taxes+%26+Procurement&L2=State+Budget&L3=FY2010+Budget+Informati
                    on&sid=Eoaf
  Michigan          http://www.michigan.gov/budget/
  Minnesota         http://www.doer.state.mn.us/fin/budget
  Mississippi       http://www.dfa.state.ms.us/
  Missouri          http://oa.mo.gov/bp/execbudgets.htm
  Montana           http://budget.mt.gov/execbudgets/default.mcpx
  Nebraska          http://www.budget.state.ne.us/




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                   H-1
   Table H-1: Budget Website Information by State as of September 14, 2009
         State                                          Website
  Nevada            http://open.nv.gov/OpenGov/ViewBudgetSummary.aep
  New Hampshire     http://admin.state.nh.us/budget/
  New Jersey        http://www.njleg.state.nj.us/legislativepub/finance.asp
  New Mexico        http://budget.nmdfa.state.nm.us/content.asp?CustComKey=201583&Categor
                    yKey=201584&pn=Page&DomName=budget.nmdfa.state.nm.us
  New York          http://www.budget.state.ny.us/
  North Carolina    http://www.osbm.state.nc.us/ncosbm/budget/index.shtm
  North Dakota      http://www.nd.gov/fiscal/budget/state/
  Ohio              http://obm.ohio.gov/SectionPages/Budget/FY1011/ExecutiveBudget.aspx
  Oklahoma          http://www.ok.gov/OSF/Budget/index.html
  Oregon            http://www.oregon.gov/DAS/BAM/GRB0911intro.shtml
  Pennsylvania      http://www.budget.state.pa.us/portal/server.pt/community/office_of_the_budg
                    et____home/4408
  Puerto Rico       http://www.gobierno.pr/gprportal/inicio
  Rhode Island      http://www.budget.ri.gov/CurrentYear/GovernorsBudget.php
  South Carolina    http://www.budget.sc.gov/OSB-about.phtm
  South Dakota      http://www.state.sd.us/bfm/overview.htm
  Tennessee         http://tennessee.gov/finance/bud/bud0910/10publications.html
  Texas             http://governor.state.tx.us/bpp/
  Utah              http://www.governor.utah.gov/budget/default.html
  Vermont           http://finance.vermont.gov/state_budget/rec
  Virginia          http://dpb.virginia.gov/budget/budget.cfm
  Washington        http://fiscal.wa.gov/Budgets.aspx
  West Virginia     http://www.wvbudget.gov/
  Wisconsin         http://www.doa.state.wi.us/debf/execbudget.asp?locid=3
  Wyoming           http://ai.state.wy.us/budget/index.asp




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                        H-2
                                                                                       Appendix I

Cuts to Programs for Public Health and the
Elderly and Disabled
According to the Center on Budget and Policy Priorities, 1 at least 27 States have
implemented cuts in public health programs—such as Medicaid or the Children’s
Health Insurance Program (CHIP)—that will restrict low-income children’s or
families’ eligibility for health insurance or reduce their access to health care
services. Additionally, at least 24 States and the District of Columbia are cutting
medical, rehabilitative, home care, or other services needed by low-income
individuals who are elderly or have disabilities, or they are significantly increasing
the costs of these services. 2 The National Conference of State Legislatures also
compiled a list of measures, both proposed and enacted, that States took or were
considering about health care to close their budget gaps. 3 Table I-1 shows these
States and the program cuts they implemented.

         Table I-1: State Cuts to Programs for Public Health and the Elderly and
                                        Disabled
         State           Medicaid and Other Public                 Programs for the Elderly and
                             Health Programs                               Disabled
    Alabama                                                    Ended homemaker services for
                                                               approximately 1,100 older adults. These
                                                               services often allow the elderly to stay in
                                                               their own homes and avoid nursing home
                                                               care.




1
  The Center on Budget and Policy Priorities is a non-partisan, nonprofit research organization that works
at the federal and state levels on budget priorities, tax policy, and public programs and policies that affect
low-income and moderate-income families and individuals.
2
    Center on Budget and Policy Priorities, An Update on State Budget Cuts, September 3, 2009.
3
 National Conference of State Legislatures, FY 2010 Actions and Proposals to Balance the Budget:
Health Care, found at http://www.ncsl.org/?tabid=17245.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                   I-1
        Table I-1: State Cuts to Programs for Public Health and the Elderly and
                                       Disabled
        State        Medicaid and Other Public                 Programs for the Elderly and
                         Health Programs                               Disabled
  Arizona          Reduced its Medicaid rolls by           Eliminated temporary health insurance for
                   requiring that some adult               people with disabilities who have serious
                   beneficiaries reapply for benefits      medical problems. The State also
                   more frequently. (Research has          eliminated general assistance, a program
                   shown added paperwork                   designed to provide time-limited cash
                   requirements cause many eligible        assistance to adults with physical or
                   people to lose coverage.)               mental disabilities. In addition, in February
                                                           2009, the State eliminated independent
                   Cut funding for community health
                                                           living supports for 450 elderly residents
                   centers and vaccines and
                                                           and respite care funding for
                   suspended funding for the
                                                           130 caregivers. It also established a
                   children’s rehabilitative services
                                                           waiting list for vocational rehabilitation
                   program, affecting 4,700 children
                                                           services, affecting 2,100 disabled
                   with chronic or disabling conditions.
                                                           individuals.

                                                           The Department of Health Services will cut
                                                           the number of free HIV/AIDS medications
                                                           given to poor and uninsured patients.
                                                           Essential medications will still be covered.
  California       Cut $1.3 billion from the State’s       Capped or reduced funding for programs
                   Medi-Cal program budget.                that serve people who have disabilities or
                                                           are elderly.
                   Medi-Cal will no longer pay for
                   certain optional benefits, such as
                   dental services.

                   Froze enrollment in the CHIP
                   program – Healthy Families. The
                   program has over 33,000 children
                   on its waiting list. Overall, the
                   Healthy Families program budget
                   was reduced by $178.6 million—a
                   44 percent reduction from the prior
                   year.
  Colorado         Cut payments to doctors who treat       Cut $15 million from health clinics that
                   Medicaid patients.                      mostly serve the uninsured.
  Connecticut      Cut $4.5 million from State
                   programs by changing the definition
                   of what is medically necessary in
                   2011.
  District of                                              Capped or reduced funding for programs
  Columbia                                                 that serve people who have disabilities or
                                                           are elderly.
  Florida          Enacted cuts in Medicaid or CHIP.       The State also cut Medicaid
                                                           reimbursements to hospitals and
                                                           community-based services for the elderly,
                                                           such as meals and homemaker services.



Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                 I-2
        Table I-1: State Cuts to Programs for Public Health and the Elderly and
                                       Disabled
        State        Medicaid and Other Public              Programs for the Elderly and
                         Health Programs                            Disabled
  Georgia          Enacted cuts in Medicaid or CHIP.    Reduced such programs for the elderly as
                                                        Alzheimer services, elder service centers,
                                                        prescription drug assistance, and elder
                                                        support
  Idaho            Enacted cuts in Medicaid or CHIP.
  Illinois         Cut $600 million from Medicaid.
  Kansas                                                Capped or reduced funding for programs
                                                        that serve people who have disabilities or
                                                        are elderly.
  Louisiana        Reduced payments to Medicaid         Capped or reduced funding for programs
                   providers by $86 million.            that serve people who have disabilities or
                                                        are elderly.
  Maine            Enacted cuts in Medicaid or CHIP.    Capped or reduced funding for programs
                                                        that serve people who have disabilities or
                                                        are elderly.
  Maryland         Enacted cuts in Medicaid or CHIP.    Capped or reduced funding for programs
                                                        that serve people who have disabilities or
                                                        are elderly.
  Massachusetts    Enacted cuts in Medicaid or CHIP.    The Governor ordered cuts in programs for
                                                        elderly, including home care, geriatric
                                                        mental health services, and prescription
                                                        drug assistance.
  Michigan         Dropped coverage of dental and/or    Capped or reduced funding for programs
                   vision services for adult Medicaid   that serve people who have disabilities or
                   beneficiaries.                       are elderly.
  Minnesota        Eliminated funding for its General   Capped enrollment at current levels for a
                   Assistance Medical Care program,     program that provides expanded health
                   which provides health care to        services and care coordination for people
                   29,500 low-income persons            with disabilities.
                   between ages 21 and 64 who have
                   no dependent children and do not
                   qualify for Federal health care
                   programs.
  Missouri         Enacted cuts in Medicaid or CHIP.    Capped or reduced funding for programs
                                                        that serve people who have disabilities or
                                                        are elderly.
  Nevada           Proposed reducing Medicaid
                   eligibility for the elderly and
                   disabled.
                   Dropped coverage of dental and/or
                   vision services for adult Medicaid
                   beneficiaries.
  New Hampshire    Enacted cuts in Medicaid or CHIP.
  New Jersey       Enacted cuts in Medicaid or CHIP.



Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                           I-3
         Table I-1: State Cuts to Programs for Public Health and the Elderly and
                                        Disabled
         State        Medicaid and Other Public               Programs for the Elderly and
                          Health Programs                             Disabled
  New Mexico                                              Cut cash assistance payments for low-
                                                          income disabled residents by a third. The
                                                          State provides these payments to an
                                                          average of 2,100 disabled individuals each
                                                          month who cannot work and are not
                                                          eligible for Temporary Assistance to Needy
                                                          Families.
  New York          Enacted cuts in Medicaid or CHIP.
                    Enacted limits to Medicaid drug
                    therapy and required doctors to use
                    less expensive drug treatments.
  North Carolina   Cut $76 million from Medicaid.         Community support services cut by
                                                          $65 million and group home funding cut by
                                                          $15.9 million.
  Ohio              Cut 3 percent from State payments     Cut local mental health agency funding by
                    to Medicaid providers.                $190 million.
                                                          Cut home-based health care for the elderly
                                                          by $68 million.
  Oregon                                                  Hospitals will be taxed 4 percent and
                                                          insurers at 1.5 percent to pay for adding
                                                          80,000 uninsured children and
                                                          35,000 uninsured adults to the Oregon
                                                          Health Plan.
  Pennsylvania                                            Capped or reduced funding for programs
                                                          that serve people who have disabilities or
                                                          are elderly.
  Rhode Island      Reduced the maximum income            Low-income elderly must pay higher rates
                    level at which parents can receive    for subsidized adult day care. This is
                    public health insurance to            estimated to affect more than 1,200 elderly
                    175 percent of the Federal poverty    with incomes below $20,000.
                    line from 185 percent, eliminating
                    coverage for approximately
                    1,000 parents. Over 7,800 other
                    low-income families are paying
                    higher monthly premiums for public
                    health insurance.
  South Carolina    Enacted cuts in Medicaid or CHIP.     Capped or reduced funding for programs
                                                          that serve people who have disabilities or
                                                          are elderly.
  South Dakota      Cut Medicaid and related programs
                    by 3.1 percent.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                              I-4
         Table I-1: State Cuts to Programs for Public Health and the Elderly and
                                        Disabled
         State        Medicaid and Other Public                Programs for the Elderly and
                          Health Programs                              Disabled
  Tennessee         Enacted cuts in Medicaid or CHIP.      Reduced community-based services for
                                                           people with intellectual disabilities and cut
                                                           nursing services for some adults with
                                                           serious disabilities.



  Utah              Cut Medicaid funding for physical,     Capped or reduced funding for programs
                    occupational, and speech and           that serve individuals who have disabilities
                    hearing therapy services for adults    or are elderly.
                    – as well as Medicaid provider rates
                    for hospitals, skilled nursing, and
                    dentists. Also dropped coverage of
                    dental and/or vision services for
                    adult Medicaid beneficiaries.
  Vermont                                                  Reduced some home-based services,
                                                           such as housekeeping and shopping, for
                                                           people who are elderly or disabled. Such
                                                           services help people stay in their own
                                                           homes and possibly delay or avoid more
                                                           expensive nursing home care.
  Virginia                                                 Decreased reimbursements for special
                                                           hospitals serving individuals with needs
                                                           relating to mental health, mental
                                                           retardation, or substance abuse. The
                                                           State also reduced pass-through grants for
                                                           various aging programs and funding for
                                                           local mental health providers.
  Washington        Increased premiums by an average       Cut $225 million by reducing services
                    of 70 percent for a health plan        under the basic health plan for the poor
                    serving low-income residents.          and stopped enrollments in the plan. As a
                    Premiums for the poorest plan          result, 40,000 residents lost coverage.
                    members—those earning up to            Capped or reduced funding for programs
                    125 percent of the poverty line—will   that serve the disabled or elderly.
                    double. The premium increase is
                    expected to cause between              Enacted cuts to nursing home daily rates.
                    7,000 and 17,000 enrollees to leave
                    the program.
  Wisconsin         Enacted cuts in Medicaid or CHIP.
  Wyoming           Enacted cuts in Medicaid or CHIP.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                 I-5
                                                                                      Appendix J

Other State Budget Issues Affecting Disability
Beneficiaries and Recipients
The Social Security Administration’s (SSA) Regional Commissioners and their staffs
assisted us in gathering information about State budget issues affecting disability
beneficiaries and recipients. Table J-1 lists issues identified by certain States as of
September 2009.

        Table J-1: Other State Budget Issues Affecting Disability Beneficiaries and
                                        Recipients
         State                                            Issues
    California    The State’s Medi-Cal program will no longer pay for the following benefits and
                  services for most adults: dental, speech therapy, podiatric, audiology, chiropractic,
                  acupuncture, optometric, optician, and psychological services. 1
                  The State proposed limiting In Home Support Services to only the most severely ill
                  and lowering the State’s share of In Home Support Service worker pay to $8.00 per
                  hour.
    Colorado      The State terminated its Aid to the Needy and Disabled program—an interim
                  assistance program that required recipients to apply for Supplemental Security
                  Income (SSI) payments. The assistance provided by this program would terminate
                  upon the receipt of an SSI payment.
    Illinois      State budget issues may impact Ticket to Work and/or Vocational Rehabilitation
                  services. The Department of Human Services, Division of Rehabilitation Services,
                  made arrangements for the Coalition of Citizens with Disabilities in Illinois to serve as
                  the Work Incentives Planning and Assistance Organization for portions of the State.
                  Since this arrangement was made, funding within the State has been reduced due to
                  the State's budgetary crisis. As a result of these funding cuts, all employees of the
                  Coalition were laid off, at least temporarily, as of July 16, 2009. The Division of
                  Rehabilitation Services is dealing with the impact and contracting issues with SSA as
                  they relate to the Work Incentive Planning and Assistance activities. Additional
                  layoffs to State employees, potentially including Vocational Rehabilitation, may occur.
    Louisiana     The State will impose a limit on the number of Medicaid prescriptions it will cover.
                  This may affect access to prescription drugs for mentally ill or disabled individuals
                  who rely on several medications to manage their conditions.
    Michigan      The State eliminated optional Medicaid benefits as of July 1, 2009. This included
                  chiropractic services, podiatrist services, hearing aids, eyeglasses, and associated
                  vision and adult dental services.
    Montana       The State reported an increase in its Medicaid eligibility workload due to increased
                  referrals—resulting in longer waiting times for applicants.



1
 Beneficiaries under age 21, living in a skilled nursing home, pregnant, or receiving benefits through the
California Children’s Services program or through a Program of All-Inclusive Care for the Elderly were
excluded from this provision.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                J-1
      Table J-1: Other State Budget Issues Affecting Disability Beneficiaries and
                                      Recipients
       State                                               Issues
    New Mexico     The State cut cash assistance payments for low-income disabled residents by
                   one-third in July 2009. The State provided these payments to an average of
                   2,100 disabled individuals each month who could not work and were not eligible for
                   Temporary Assistance to Needy Families.
    Ohio           There will be an impact on State Legal Rights Services, which is a Work Incentives
                   Planning and Assistance Organization and a Protection and Advocacy Agency for
                   Social Security beneficiaries. Like DDS employees, all State Vocational
                   Rehabilitation employees will have to take 10 furlough days during Fiscal Year 2010.
                   A Work Incentives Planning and Assistance Organization in Ohio has started to lay off
                   Community Work Incentive Coordinator staff.
    Rhode Island   The State raised Medicaid co-payments.
                   Additionally, the State decreased the State supplement effective January 2009 by the
                   amount of the Federal cost of living increase so there was no net gain for recipients.
                   Cuts at the State’s Department of Children and Family Services have compromised
                   SSA’s ability to effectively manage its programs. Redeterminations and Limited Issue
                   cases are difficult to complete when the Department is the representative payee. The
                   Department is not proactive in filing for Social Security benefits for those in their care
                   who may be entitled. The Department also contributes to creating benefit misuse
                   situations by failing to notify SSA timely when children receiving Social Security
                   benefits or SSI payments come into their care. Benefits continue to be sent to the
                   prior payees who may misuse them rather than return them to SSA.
    Tennessee      Eligibility requirements for the State Medicaid Spend-Down Program were revised
                   due to budget cuts. Beneficiaries not meeting the new eligibility criteria lost access to
                   health care coverage. Field Offices and Public Affairs Specialists received numerous
                   calls and Congressional inquires concerning the cuts in the Medicaid Standard Spend
                   Down entitlement. Beneficiaries inquired about other programs to supplement their
                   medical expenses.
                   As a result of a court decision, TennCare 2 is no longer responsible for paying
                   Medicare Part B premiums for approximately 142,000 beneficiaries. An estimated
                   5,000 of these beneficiaries reside outside Tennessee. Presently, these
                   beneficiaries/recipients are not eligible for SSI payments but have continued State
                   Medicaid eligibility and are automatically entitled to the Medicare Part D Low Income
                   Subsidy because of a court injunction. Tennessee Field Offices received several
                   calls and visits for explanations regarding Medicare premiums and health care
                   coverage issues.
    Utah           The State’s General Assistance program reduced the entitlement period from 18 to
                   12 months. This could result in a lapse of benefits for any Social Security case
                   pending longer than 12 months.
    Vermont        The State contemplated cutting the State supplement by 50 percent of the Federal
                   SSI increase. However, because there will be no Federal SSI increase in 2010, the
                   State will not reduce the State supplement.




2
    TennCare is Tennessee’s Medicaid program under a managed care model.


Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                                 J-2
    Table J-1: Other State Budget Issues Affecting Disability Beneficiaries and
                                    Recipients
    State                                              Issues
 Wisconsin      Vocational Rehabilitation employees will be subject to 4 furlough days in each of
                federal Fiscal Years 2010 and 2011. These furlough days will be sporadic and linked
                to federal holidays (Columbus Day, the day after Thanksgiving, Presidents' Day, and
                the Friday before Memorial Day), so the direct impact on service will not be as severe
                as it could have been had these days been concurrent.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)                          J-3
                                                                             Appendix K

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments
In addition to those named above:

  Katie Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-11006.




Impact of State Budget Issues on SSA’s Disability Programs (A-01-10-11006)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
